<html>
<title> - CALIFORNIA CRIMINAL JUSTICE REFORM: POTENTIAL LESSONS FOR THE NATION</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



 
  CALIFORNIA CRIMINAL JUSTICE REFORM: POTENTIAL LESSONS FOR THE NATION

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 13, 2019

                               __________

                           Serial No. 116-35 

                               __________

         Printed for the use of the Committee on the Judiciary
         
         
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      

         


        Available http://judiciary.house.gov or www.govinfo.gov
        
        
        
        
                           ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
38-184               WASHINGTON : 2021 
         
        
        
                       COMMITTEE ON THE JUDICIARY

                   JERROLD NADLER, New York, Chairman
ZOE LOFGREN, California              DOUG COLLINS, Georgia,
SHEILA JACKSON LEE, Texas              Ranking Member
STEVE COHEN, Tennessee               F. JAMES SENSENBRENNER, Jr.
HENRY C. ``HANK'' JOHNSON, Jr.,        Wisconsin
    Georgia                          STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida          LOUIE GOHMERT, Texas
KAREN BASS, California               JIM JORDAN, Ohio
CEDRIC L. RICHMOND, Louisiana        KEN BUCK, Colorado
HAKEEM S. JEFFRIES, New York         JOHN RATCLIFFE, Texas
DAVID N. CICILLINE, Rhode Island     MARTHA ROBY, Alabama
ERIC SWALWELL, California            MATT GAETZ, Florida
TED LIEU, California                 MIKE JOHNSON, Louisiana
JAMIE RASKIN, Maryland               ANDY BIGGS, Arizona
PRAMILA JAYAPAL, Washington          TOM McCCLINTOCK, California
VAL BUTLER DEMINGS, Florida          DEBBIE LESKO, Arizona
J. LUIS CORREA, California           GUY RESCHENTHALER, Pennsylvania
MARY GAY SCANLON, Pennsylvania,      BEN CLINE, Virginia
  Vice-Chair                         KELLY ARMSTRONG, North Dakota
SYLVIA R. GARCIA, Texas              W. GREGORY STEUBE, Florida
JOE NEGUSE, Colorado
LUCY McBATH, Georgia
GREG STANTON, Arizona
MADELEINE DEAN, Pennsylvania
DEBBIE MUCARSEL-POWELL, Florida
VERONICA ESCOBAR, Texas
        Perry Apelbaum, Majority Staff Director & Chief Counsel
                Brendan Belair, Minority Staff Director
                                 ------                                

        SUBCOMMITTEE ON CRIME, TERRORISM, AND HOMELAND SECURITY

                     KAREN BASS, California, Chair
                    VAL DEMINGS, Florida, Vice-Chair
SHEILA JACKSON LEE, Texas            JOHN RATCLIFFE, Texas,
LUCY McBATH, Georgia                   Ranking Member
TED DEUTCH, Florida                  F. JAMES SENSENBRENNER, Jr.
CEDRIC RICHMOND, Louisiana             Wisconsin
HAKEEM JEFFRIES, New York            STEVE CHABOT, Ohio
DAVID N. CICILLINE, Rhode Island     LOUIE GOHMERT, Texas
TED LIEU, California                 TOM McCLINTOCK, California
MADELEINE DEAN, Pennsylvania         DEBBIE LESKO, Arizona
DEBBIE MUCARSEL-POWELL, Florida      GUY RESCHENTHALER, Pennsylvania
STEVEN COHEN, Tennessee              BEN CLINE, Virgina
                                     W. GREGORY STEUBE, Florida
                   Joe Graupensperger, Chief Counsel
                    Jason Cervenak, Minority Counsel
                    
                            C O N T E N T S

                              ----------                             


                             JULY 13, 2019

                           OPENING STATEMENTS

                                                                   Page
The Honorable Karen Bass, a Representative in Congress from State 
  of California, and Chair of the Subcommittee on Crime, 
  Terrorism, and Homeland Security
    Oral Testimony...............................................     1
The Honorable Ted Lieu, a Representative in Congress from State 
  of California, Member of the Subcommittee on Crime, Terrorism, 
  and Homeland Security
    Oral Testimony...............................................    47
The Honorable Henry C. ``Hank'' Johnson, Jr., a Representative in 
  Congress from State of Georgia, a Member of the House Committee 
  on the Judiciary
    Oral Testimony...............................................    69
The Honorable G. K. Butterfield, a Representative in Congress 
  from State of North Carolina, a former Chair and Member of the 
  Congressional Black Caucus
    Oral Testimony...............................................    49
The Honorable Dwight Evans, a Representative in Congress from 
  State of Pennsylvania, a Member of the Congressional Black 
  Caucus
    Oral Testimony...............................................    50
The Honorable Steven Horsford, Representative in Congress from 
  State of Nevada, a Member of the Congressional Black Caucus
    Oral Testimony...............................................    52

                               WITNESSES
                                Panel 1

Michael Romano, Director, Three Strikes Project and Justice 
  Advocacy Project and Lecturer in Law, Stanford Law School
    Oral Testimony...............................................     5
    Prepared Statement...........................................     8
Taina Vargas-Edmond, Initiate Justice
    Oral Testimony...............................................    22
    Prepared Statement...........................................    25
Charis E. Kubrin, Professor, Department of Criminology, Law and 
  Society, University of California-Irvine
    Oral Testimony...............................................    31
    Prepared Statement...........................................    33

                                Panel 2

Susan Burton, A New Way of Life Reentry Project
    Oral Testimony...............................................    55
John Harriel (Big John), Electrician, Diversity Manager, General 
  Superintendent for Marrow Meadows Corporation, and Facilitator 
  with 2nd Call
    Oral Testimony...............................................    57
    Prepared Statement...........................................    59
Stanley Bailey, Durango, CO
    Oral Testimony...............................................    65
    Prepared Statement...........................................    67

          LETTER, MATERIAL, ARTICLES SUBMITTED FOR THE RECORD

Written Talking Points from the Women Organizing Reentry 
  Communities of Color (WORCC-Prop 47) Network to Representative 
  Karen Bass, a Member of Congress from the State of California, 
  and Chair of the Subcommittee on Crime, Terrorism, and Homeland 
  Security.......................................................    42

                                APPENDIX

Letter from Women Organizing Reentry Communities of Color to 
  Representative Karen Bass, a Member of Congress of California, 
  Chair of the Subcommittee on Crime, Terrorism, and Homeland 
  Security and Representative John Ratcliffe, a Member of 
  Congress of the State of Texas, and Ranking Member of the 
  Subcommittee on Crime, Terrorism, and Homeland Security........    84
Submitted Testimony by Michele Alpuente Hanisee, President of the 
  Association of Deputy District Attorneys for Los Angeles, 
  California.....................................................    87


  CALIFORNIA CRIMINAL JUSTICE REFORM: POTENTIAL LESSONS FOR THE NATION

                              ----------                              


                        SATURDAY, JULY 13, 2019

                        House of Representatives

        Subcommittee on Crime, Terrorism, and Homeland Security

                       Committee on the Judiciary

                            Washington, DC.

    The subcommittee met, pursuant to call, at 9:47 a.m., in 
Fame Renaissance Center, 1968 West Adams Boulevard, Los 
Angeles, CA, Hon. Karen Bass [chair of the subcommittee] 
presiding.
    Present: Representatives Bass, and Lieu.
    Also present: Representatives Johnson of Georgia, 
Butterfield, Evans, and Horsford.
    Staff Present: Ben Hernandez, Counsel; Joe Graupensperger, 
Chief Counsel; Rachel Rossi, Counsel; Veronica Eligan, 
Professional Staff Member.
    Ms. Bass. Good morning, everyone. Good morning, everyone.
    [Applause.]
    Ms. Bass. We have to give a good L.A. welcome to members of 
the Judiciary Subcommittee, as well as members of the 
Congressional Black Caucus. So, good morning everyone.
    [Applause.]
    Ms. Bass. I am Congresswoman Karen Bass, and one of the 
many paths I have in Congress is I serve on the Judiciary 
Committee, and on Judiciary we have several subcommittees. So I 
chair the Subcommittee on Crime, Terrorism, and Homeland 
Security. So what we are going to do today is to have an 
official hearing. This is not a town hall meeting like we 
usually do in L.A., but this is an official hearing of the 
Subcommittee, and we are going to examine California's reforms.
    So, without objection, the Chair is authorized to declare 
recesses of the Subcommittee at any time.
    Our Subcommittee will come to order now, and I welcome 
everyone to today's hearing on California's criminal justice 
reform and potential lessons for the nation.
    I will now recognize myself for an opening statement.
    We are here today to discuss California's criminal justice 
reform efforts and to determine whether there are lessons the 
nation can learn.
    It is first important to recognize how California's reforms 
came to be. California was long known for its tough-on-crime 
policies, and it once led the nation in the rush for mass 
incarceration. Between 1975 and 2006, California's prison 
population increased eight-fold. From 1980 to 2006, 
California's jail population more than tripled. By the 2000s, 
California's prisons, which were designed to house a population 
of about 80,000, held over double their capacity.
    Incarcerated people slept in gyms, hallways, and dayrooms. 
Mentally ill prisoners were jammed into tiny holding cells. 
Inmate suicide rates were 80 percent higher than in the rest of 
the nation's prisons. And this rapid incarceration devastated 
communities of color. Black persons represented 6 percent of 
the population but 27 percent of the incarcerated population.
    It is important to note that, unfortunately, this data has 
not changed. At the end of 2016, 29 percent of male prisoners 
in state prisons were black, while only 6 percent of the 
state's male residents were black.
    California, however, has made strides. After the 2011 
Supreme Court case mandating the reduction of this 
unconstitutional incarceration, numerous ballot initiatives 
reflected the will of the people to scale back mass 
incarceration.
    What has California done right? The witnesses in our first 
panel will describe ballot initiatives that have begun to 
drastically reduce the state's incarcerated population. These 
reforms have been narrowly targeted, but also have broadly 
applied to more types of offenses than simply low-level drug 
possession. The reforms include narrowing the Three Strikes 
law, the revision of felony murder laws, the reduction of 
penalties for drug and theft offenses, the expansion of parole 
and earned time credits for early release from prison, and the 
broad revisions of juvenile laws, and many more.
    I know many of you in this room have been involved for the 
last three decades in making these reforms happen. So although 
many of them took place by ballot initiatives, it was the 
people in this room and others throughout our state who led a 
movement through many grassroots organizations that created the 
public will and identified the resources for the ballot 
initiatives to take place to begin with. And as a result, the 
state's incarceration levels have decreased drastically.
    California's prison population--that is right, applaud for 
that.
    [Applause.]
    Ms. Bass. California's prison population had peaked at 
nearly 163,000 in 2006. By 2018, the California prison 
population stabilized at around 115,000, which is still far 
above capacity but leaves California with the 18th lowest 
incarceration rate in the country.
    And remarkably, crime has not increased as a result of any 
of these reforms. Today I hope to explore these reforms--that 
deserves another applause.
    [Applause.]
    Ms. Bass. Today I hope to explore these reforms and whether 
similar comparable efforts will work at the Federal level.
    We took a modest and remarkable step with the passage of 
the First Step Act last year, but California's experience can 
aid Federal legislators as we consider legislative efforts 
beyond those that focus on low-level drug offenders and how to 
safely and creatively expand the type of offenses that must be 
reformed.
    But take note: California is far from finished in its 
efforts. The prison incarceration rate in California is 4,180 
per 100,000 residents for African American men, compared with 
420. So that is 4,000 to 420 for white men. As in the case of 
other states and federally, we have not begun to sufficiently 
mitigate the clear racially disparate treatment within our 
criminal justice system, and reentry efforts must improve both 
in California and at the Federal level.
    California has demonstrated that reentry efforts and the 
mitigation of collateral consequences must be a focus when 
considering criminal justice reform. Reform cannot only focus 
on reducing prison populations, it must also focus on ensuring 
the success of those coming home. The National Inventory of the 
Collateral Consequences of Conviction counted more than 44,000 
separate collateral consequences to conviction. These include 
ineligibility for certain professional licenses and Federal 
housing assistance, and can limit many aspects of an 
individual's life, such as employment, education, and 
government benefits.
    Lack of housing post-incarceration creates particularly 
dire challenges for women, especially those who are parents, 
and over 80 percent of women are parents, mothers who are 
incarcerated. Mothers may be required by child welfare agencies 
to locate adequate housing in order to gain custody of their 
children in foster care, and the witnesses on our second panel 
will describe this.
    Today, this field hearing is an exciting opportunity for 
Congress to lead Washington, D.C. and to expand our 
understanding of criminal justice reform, and today I believe 
we will learn from California that we can reduce mass 
incarceration safely, but we must do so with the focus on more 
than numbers. We must focus on the people impacted and 
addressing their needs.
    So from this hearing, we hope to develop legislation on 
reentry and looking for other ways to reduce the prison 
population.
    Let me, before I introduce our witnesses, let me take a 
moment to introduce my colleagues that are here today. Two of 
my colleagues serve on the Judiciary Subcommittee on Crime.
    Representative Ted Lieu from Los Angeles. We all know Ted 
Lieu.
    [Applause.]
    Ms. Bass. Representative Hank Johnson from the great state 
of Georgia.
    [Applause.]
    Ms. Bass. Representative G.K. Butterfield from North 
Carolina.
    [Applause.]
    Ms. Bass. I might add, G.K. is the former Chair of the 
Congressional Black Caucus.
    Dwight Evans from the great state of Pennsylvania.
    [Applause.]
    Ms. Bass. And Representative Steven Horsford from Las 
Vegas, Nevada.
    [Applause.]
    Ms. Bass. So in addition to the hearing today--and this 
hearing is a collaboration between the Congressional Black 
Caucus and the Crime Subcommittee. Members of the Congressional 
Black Caucus will be here all day. After this, we will be going 
to review our homeless situation, which we also know is one of 
the collateral consequences of mass incarceration as well.
    Let me acknowledge Ira Reiner who is here, our former 
District Attorney.
    Please stand, Mr. Reiner.
    [Applause.]
    Ms. Bass. And there are many, many, many community leaders 
who are here.
    So once again, I thank you so much for coming. You know we 
do town halls all the time, but just to note this is different 
than a town hall. This is a formal hearing.
    So I want to begin by introducing our panelists.
    Professor Michael Romano is the Director of the Three 
Strikes Project and Justice Advocacy Project, and a Lecturer in 
Law at Stanford Law School. Professor Romano teaches Criminal 
Justice Policy and Advanced Criminal Litigation Practice, and 
has published several scholarly and popular press articles on 
criminal law, sentencing policy, prisoner reentry and 
recidivism, and mental illness in the justice system.
    Michael also co-authored successful statewide ballot 
measures in California, the Three Strikes Reform Act, 
Proposition 36, and the Safe Neighborhoods and School Act, 
Proposition 47.
    Ms. Taina Vargas-Edmond is the Co-Founder and Executive 
Director of Initiate Justice. Initiate Justice was created by 
and for incarcerated people, formerly incarcerated people, and 
people with incarcerated loved ones, and represents 15,000 
incarcerated members and organizers, both incarcerated and on 
the outside. One of Initiate Justice's successful campaigns was 
in support of Proposition 57, approved by the voters in 2016. 
It expanded the applicability of earned time credits for 
successful completion of education and rehab programs.
    Professor Charis Kubrin is a Professor of Criminology, Law, 
and Society at the University of California-Irvine. Her 
research focuses on neighborhood correlates of crime, with an 
emphasis on race and violent crime. Recent work in this area 
examines the immigration-crime nexus across neighborhoods and 
cities, as well as accesses the impact of criminal justice 
reform on crime rates. Professor Kubrin co-authored the only 
effort to evaluate systematically Proposition 47's impact on 
California crime rates, which found that the reform cannot be 
linked to any rise in crime.
    We welcome our witnesses and thank them for participating 
in today's hearing. Please note that your written statement 
will be entered into the record in its entirety. Accordingly, I 
ask that you summarize your testimony in 5 minutes.
    And to help you stay within that time, there is a timing 
light. Where is that timing light? Oh, okay, there is that big 
timing light. When the time expires, we need you to conclude 
your testimony.
    We will now proceed under the 5-minute rule with questions.
    Before we go to that, we will have each panelist speak for 
5 minutes, and then our panel here will engage in questions. 
Each member on the panel will have 5 minutes to question you.
    Mr. Romano.

 STATEMENTS OF MICHAEL ROMANO, DIRECTOR, THREE STRIKES PROJECT 
AND JUSTICE ADVOCACY PROJECT AND LECTURER IN LAW, STANFORD LAW 
   SCHOOL; TAINA VARGAS-EDMOND, INITIATE JUSTICE; CHARIS E. 
KUBRIN, PROFESSOR, DEPARTMENT OF CRIMINOLOGY, LAW AND SOCIETY, 
                UNIVERSITY OF CALIFORNIA-IRVINE

                   STATEMENT OF MICHAEL ROMANO

    Mr. Romano. Thank you, Chair Bass and other members of 
Congress. It is an honor to be here today.
    My name is Michael Romano. I teach criminal justice policy 
at Stanford Law School. As part of that work, I represent 
people who are sentenced to life in prison for non-violent 
crimes and help to reform the laws that put them there in the 
first place.
    Ms. Bass. Hold on one second.
    Can people in the back hear? Can everybody hear? Okay, 
good.
    Pull your mic a little bit closer. Okay.
    Mr. Romano. Is that better?
    Ms. Bass. Yes.
    Mr. Romano. All right.
    As the Chair mentioned, I was intimately involved with 
three recent ballot measures enacted here in California, 
Propositions 36, 47, and 57, plus other reforms which have 
sustained a remarkable and ongoing movement to reduce 
California's prison population.
    I would like to make three main points with my testimony 
today. First, California has successfully reduced our prison 
population by 26 percent, or 45,000 inmates, and reduced crime 
at the same time.
    [Applause.]
    Mr. Romano. Since the peak of California's prison boom in 
2006, violent crimes in California are down 17 percent, and 
property crimes are down 27 percent. You can reduce prison 
sentences and crime rates at the same time. It is a fact.
    Second, despite our successes, legislative action seems to 
lag behind public opinion. I would like to single out 
Proposition 36, the reform to California's Three Strikes law 
for a minute, because it was the first law in California to 
roll back prison sentences because it was enacted by voters and 
because it is the reform with which I am most familiar.
    We first went to Sacramento, and we couldn't get out of 
committee. Our allies, Democrats, liberal activists, said it 
couldn't be done. They worried about Willy Horton.
    Our opponents asked: ``What do you think is going to happen 
by reducing Three Strike sentences, even for minor crimes like 
shoplifting and drug possession? We already know,'' they said, 
``they will commit new crimes and kill innocent people.'' That 
is a direct quote.
    They were wrong.
    Proposition 36 passed with 70 percent of the statewide vote 
and a majority in every county in the state.
    [Applause.]
    Mr. Romano. Even in red counties that voted for Mitt 
Romney. Over 2,000----
    [Laughter.]
    Ms. Bass. They think it is funny that people voted for Mitt 
Romney.
    Mr. Romano. It is a big state.
    Over 2,000 hopeless recidivists and career criminals have 
been freed under Proposition 36, and their recidivism rate is 
almost two times better than the state average.
    Voters want criminal justice reform. In three straight 
elections we have overwhelmingly passed initiatives that 
reduced criminal punishments for almost all crimes. The least 
popular of these reforms, Proposition 47, passed by a two-to-
one margin. New polling shows that likely 2020 voters, and even 
crime survivors in California, all support continued reform. 
And as you surely know, criminal justice reform is now a 
bipartisan issue.
    I submit that the politics of ``tough on crime'' is over 
and we must take the opportunity to reexamine the reform laws 
that we know don't help public safety but instead inflict 
misery, destroy families and communities, and cost billions and 
billions of dollars.
    Finally, so much work remains to be done. Far too many 
people still remain behind bars. I know them personally because 
I am their lawyer. I represent Malcolm McGee, who is serving a 
mandatory sentence of life without the possibility of parole in 
Federal prison for a non-violent drug crime. His prior strikes 
are misdemeanors. He has never committed a violent crime. He 
has already served 20 years. He has zero prison rule 
violations, hundreds and hundreds of hours of educational and 
vocational programming, and a loving family waiting, hoping, 
and praying for him to come home.
    I also represent Alejandro Nolkemper, who is serving a life 
sentence for breaking a church window here in Los Angeles. That 
is now a misdemeanor. She is transgender and fears for her 
safety in prison, so she commits minor rule violations, like 
breaking her cell window, to intentionally get sent to solitary 
confinement, where she feels safe. In solitary, she has no 
access to programming, which is required for her release. So 
she, too, remains in prison for the rest of her life.
    Finally, there is Stanley Bailey. Stanley was sentenced to 
life for possession of drug paraphernalia under the Three 
Strikes law. After serving more than 20 years, he got lucky and 
was released under Proposition 36 in 2014. He went to a halfway 
house, volunteered for a truck driving school, eventually got 
his commercial driving license, and he also decided to give 
back. He came to work for my office helping to support folks 
who are released from prison.
    [Applause.]
    Mr. Romano. Then he did it for the White House, the Obama 
White House, traveling the country and meeting prisoners 
released under executive clemency, welcoming them to a new, 
free world, and helping them integrate into society. His work 
was recognized by the Obama Administration as a Champion of 
Change.
    There are thousands of Stanley Baileys in prison across the 
country today. They are changed people. They are good people. 
They don't need to be there, and we should all work to get them 
out.
    [Applause.]
    Mr. Romano. I am very proud to say that the one and only 
Stanley Bailey is here today and is here to tell his story 
himself.
    Thank you all very much for your time. I look forward to 
answering your questions.
    [Applause.]
    [The statement of Mr. Romano follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
    
       
    Ms. Bass. Thank you.
    Ms. Vargas-Edmond.

                STATEMENT OF TAINA VARGAS-EDMOND

    Ms. Vargas-Edmond. Good morning, Chair and members. My name 
is Taina Vargas-Edmond. I am the Founder and Executive Director 
of Initiate Justice, an organization that works to end mass 
incarceration by activating the political power of those who 
are directly impacted by it.
    We organize currently incarcerated people, formerly 
incarcerated people, and their loved ones to fight for policy 
change that bring people home from prison and keep our 
communities safe.
    Over the last few years, Initiate Justice has been part of 
the broader reform movement in California that has succeeded in 
reducing our prison population while at the same time reducing 
recidivism rates. Today I will discuss three of those 
sentencing reforms that I believe have had the most significant 
impacts: one, youth offender parole; two, ending the felony 
murder rule; and three, Proposition 57.
    In 2013, 2014, and 2017, the California state legislature 
passed three pieces of legislation that created a youth 
offender parole program, meaning that people who were sentenced 
under the age of 18, under the age of 22, and under the age of 
26, respectively, were given the opportunity to apply for early 
release, to go to the Parole Board sooner, while taking into 
consideration their mental and cognitive development because of 
their age. This program has been one of the most successful 
programs in not only reducing the California state prison 
population but also people who are released under youth 
offender parole have the lowest recidivism rates out of any 
group. For the first year that they were--for the first cohort 
of folks who were released, they had a one-year recidivism rate 
of zero percent, a two-year recidivism rate of zero percent, 
and a three-year recidivism rate of 2.2 percent.
    [Applause.]
    Ms. Vargas-Edmond. An important piece about those pieces of 
legislation and the other ones that I am discussing is that 
they were implemented retroactively, meaning that they do 
impact people who are currently incarcerated, which is critical 
in any policy reform that we are proposing.
    The second piece of legislation that I will discuss is S.B. 
1437, which was passed by the California state legislature just 
this last year, which reformed California's felony murder rule. 
In California, you could be sentenced to life for murder when 
you did not commit the murder if you were committing another 
felony at the time. So if you were, for example, a getaway 
driver, having no idea that a murder was being committed, you 
could still go to prison for murder the same as the person who 
actually committed the homicidal act.
    This was changed last year, and now we have dozens of 
people who have been released throughout the state so far, and 
hundreds more who are awaiting hearing who are going to be 
resentenced for their actual participation in the crime----
    [Applause.]
    Ms. Vargas-Edmond [continuing]. And have the opportunity to 
come home.
    Most significantly, I would like to discuss Proposition 57, 
which passed with an overwhelming majority in November of 2016. 
Proposition 57 did three things. One, it made it much more 
difficult for people who were convicted as youth to be 
sentenced as adults. Two, it created a parole opportunity for 
people sentenced to certain non-violent offenses. And three and 
most significantly, it created a credit earning program for 96 
percent of people currently incarcerated in the California 
state prison system.
    What is important about the credit earning portion of 
Proposition 57 is that it represented a paradigm shift in 
California, where we recognized that people who are currently 
incarcerated, one, need incentives to be able to invest in 
their own rehabilitation and transformation; and two, by 
offering folks these incentives and these tools, we are 
actually increasing their likelihood of success while they 
reenter society.
    I am a person who has personally been impacted by 
Proposition 57, with my husband earning almost two years off of 
his sentence, and in three days we will celebrate one year 
since he has been home from prison.
    [Applause.]
    Ms. Vargas-Edmond. The issue with Proposition 57 is that 
the Department of Corrections and Rehabilitation was offered a 
lot of leeway in terms of how they implement the credit earning 
opportunities, and in response to Proposition 57, in response 
to these other retroactive policy reforms that I have 
discussed, I am also going to take some time to offer some 
recommendations for the state of California, and also things 
that I believe the Federal Government should keep in mind as 
you consider policy reforms as well.
    One, we must close prisons. Despite our decreasing prison 
population, the California Corrections budget has continued to 
soar every single year. This is in part due to increasing 
medical and mental health costs for incarcerated people, but 
mostly due to the fact that prisons have continued to be in 
operation despite the fact that the population is going down. 
Facilities must close for us to eliminate these operating 
costs.
    Two, we must implement more inclusive policy reforms. Many 
proposed policy reforms tend to address the political low-
hanging fruit, the folks who are convicted of non-violent, non-
serious, non-sex offenses. The fact of the matter is, 
especially in the state prison system, that most people are 
serving time for violent offenses, and we need to reconcile 
with that and consider how we are going to address these more 
serious offenses and think about solutions and not just 
punishment.
    In that vein, three, we must expand restorative justice 
practices. Our existing criminal justice system----
    [Applause.]
    Ms. Vargas-Edmond. Our existing criminal justice system is 
punitive in nature, meaning that we punish people rather than 
looking at root causes, rather than focusing on healing and 
transformation of the individual and the victims and survivors 
of the offense.
    [Applause.]
    Ms. Vargas-Edmond. Four, we must end sentencing 
enhancements, including the Three Strikes law in California.
    [Applause.]
    Ms. Vargas-Edmond. Sentencing enhancements are meant to act 
as a deterrent for crime, but there is no evidence to suggest 
that sentencing enhancements have been effective. Our 
sentencing enhancement laws are so complicated that the average 
person is not familiar with them, so no one thinks, okay, let 
me not commit this offense because of Penal Code Section blah-
blah-blah. And in California, we actually have more sentencing 
enhancements than we have penal code violations on the books.
    And five, we must ensure that people directly impacted by 
incarceration are leading these policy reforms. People directly 
impacted by incarceration are leaders in our own experiences. 
We are the ones who understand what we need to make our 
communities safe because we know what we didn't have to end up 
in prison in the first place.
    The first step in doing this is that we must restore voting 
rights to all people impacted by incarceration.
    [Applause.]
    Ms. Vargas-Edmond. And I will conclude with this. As a 
representative of an organization led by people directly 
impacted by incarceration who fight for policy change, I have 
witnessed many victories in decarceration policy in recent 
years. California is in the midst of a paradigm shift where our 
leaders are finally starting to realize that the punitive 
justice system and being tough on crime is not a cure for our 
social ills.
    As we move forward toward ending mass incarceration, we 
must expand on existing reforms and fight for bold and 
courageous change that is rooted in solutions rather than just 
punishment. Ending mass incarceration will require that we 
address these root causes of harm, shift our culture to one 
that embraces transformation, and follow the lead of those 
directly impacted by the criminal legal system. Thank you.
    [Applause.]
    [The statement of Ms. Vargas-Edmond follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
        
    Ms. Bass. Thank you.
    Ms. Kubrin.

                 STATEMENT OF CHARIS E. KUBRIN

    Ms. Kubrin. Good morning and thank you for the opportunity 
to appear before you in these hearings. My name is Charis 
Kubrin. I am a professor of Criminology, Law and Society at the 
University of California-Irvine, and among other things I 
research the impact of criminal justice reform, prison 
downsizing in particular, on crime rates.
    I first got interested in criminal justice reform back in 
2011 when I moved from D.C. to California to start my job at 
U.C.-Irvine. It happened that realignment A.B. 109 had just 
been implemented. I knew absolutely nothing about realignment, 
but everywhere I turned I heard dire predictions of an 
impending crime wave, and I came to learn that despite these 
grave concerns there was no state funding set aside to evaluate 
realignment's impact, and that at that point no studies had yet 
been done, so there was no evidence to weigh in on the issue 
one way or another.
    I decided to do something about it. My colleague, Dr. 
Carroll Seron, and I received funding from the National Science 
Foundation to hold a workshop at U.C.-Irvine bringing together 
leading scholars who researched prison downsizing throughout 
the country. The workshop addressed essential questions, 
including did realignment cause crime and recidivism rates to 
rise. Those who participated conducted original research. Those 
studies were peer reviewed and published in a special issue of 
the Annals of the American Academy of Political and Social 
Science, which Dr. Saron and I co-edited. Our volume represents 
the first scientific, systematic analysis of realignment's 
impact.
    In the volume, Drs. Magnus Lofstrom and Steve Rafael 
conducted a study of statewide crime trends pre- and post-
realignment. What they found was that realignment had no impact 
whatsoever on violent crime, and only a very modest impact on 
property crime, and that was only for the crime of auto theft. 
They concluded the criminogenic consequences of realignment 
have been modest.
    Dr. Seron and I worked hard to disseminate these findings. 
We published an op-ed in the Washington Post, we held a 
briefing in Sacramento, we spoke with reporters, we met with 
law enforcement officials, and during our outreach something 
really interesting happened, which was that as we spoke about 
realignment and its impact, people wanted to know more about 
Prop. 47, the newest reform that had been implemented, and what 
its impact on crime rates were throughout the state.
    Just like its predecessor, Prop. 47 became heavily 
politicized. I saw the same alarming headlines in the news, 
``Prop. 47 Causing a Crime Wave,'' for example, and the same 
situation with no funding set aside to evaluate it and no 
studies done at that time. One claim especially concerned me. 
Many people assumed that if crime rates went up following Prop. 
47's implementation, that Prop. 47 was to blame for those 
rising crime rates. But crime rates going up, or down for that 
matter, tell us nothing about the causes of those crime trends, 
whether they be up or down, because crime is caused by a 
constellation of factors, not just a single policy. A proper 
evaluation is necessary to evaluate any policy's causal impact.
    This time I didn't wait for someone else to conduct the 
study. I did the research myself, along with my graduate 
student, Bradley Bartos. Our goal was simply to examine the 
impact of Prop. 47 on violent and property crimes statewide in 
the year following Prop. 47's enactment, so 2015. We wanted to 
study Prop. 47's impact on murder, rape, robbery, assault, 
burglary, larceny, and auto theft. So we did all of the UCR 
Part I crimes. And we utilized a research method that allowed 
us to construct a comparison unit that approximates California 
had it not enacted Prop. 47. We called this ``Synthetic 
California.''
    Synthetic California is comprised of other states in the 
U.S. that looked a lot like California in their crime trends 
prior to Prop. 47 being implemented but that did not implement 
a Prop. 47-style intervention. What we were able to do in our 
study was compare crime in California in 2015 with crime in 
Synthetic California in 2015, and any difference between the 
two time trends can be seen as the causal impact of Prop. 47. 
So we really wanted to isolate the policy's impact.
    So, what did we find? We found that Prop. 47 had absolutely 
no impact whatsoever on the crimes of homicide, rape, 
aggravated assault, robbery and burglary. We did find that 
Prop. 47 might have caused a slight uptick in larceny and motor 
vehicle theft, however. But before we could conclude that this 
was, in fact, the case, we needed to do what was called 
robustness checks on our data, and these are standard tests 
that are done in order to determine whether we might have 
issues of spuriousness in our study, like noise in our crime 
trends that could be accounting for these findings, and also to 
determine the extent to which our findings may be sensitive to 
our model specification; so if we created Synthetic California 
differently, would we find different results.
    The robustness checks revealed that, in fact, the findings 
for both larceny and motor vehicle theft do not hold. So 
overall, we found very little evidence, almost no evidence, to 
suggest that Prop. 47 had an impact on violent or property 
crime in the state of California following its enactment.
    These findings were published in the peer-reviewed journal 
Criminology and Public Policy, a leading journal in the field.
    So, what is the larger takeaway from both of these studies?
    Two things.
    First, we can downsize our prisons without harming public 
safety. We absolutely can.
    [Applause.]
    Ms. Kubrin. And secondly, that as other states throughout 
the nation debate prison downsizing and consider what reforms 
may work in their states, that California has to be front and 
center of that discussion.
    Thank you.
    [Applause.]
    [The statement of Ms. Kubrin follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
        
    Ms. Bass. Well, I want to thank our witnesses.
    We will now proceed under the 5-minute rule with questions.
    I would like to ask unanimous consent of my colleagues to 
allow our three members who are here who are not on the 
committee to participate in Q&A. Thank you.
    And I would also like to ask unanimous consent--I want to 
enter a document in from the Women Organizing Reentry 
Communities of Color.
    [The information follows:]

      

                   CHAIR BASS FOR THE OFFICIAL RECORD

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    Ms. Bass. I am beginning the Q&A by recognizing myself for 
5 minutes.
    So, the Women Organizing Reentry Communities of Color have 
made a few recommendations. One, they want to make sure that we 
include gender at the onset of policy development; that we 
target resources for women of color to access employment and 
other streams of income; that we build data systems and 
collection into policies to promote transparency. And I would 
like to ask if the Women Organizing Reentry Communities of 
Color, if you are here, if you could stand so that we could 
acknowledge you.
    [Applause.]
    Ms. Bass. Thank you. Thank you. Thank you very much for 
your input.
    You know, those of us from California and the two of us 
here on the panel, Representative Lieu and I, are familiar with 
the propositions. But I wanted to know, Mr. Romano, if you 
could please restate what were the significant aspects of 
Proposition 47.
    Mr. Romano. So, Proposition 47, which was enacted in 2014, 
took six common street-level crimes--we are talking petty 
theft, shoplifting, forgery, drug possession--and made those 
crimes mandatory misdemeanors rather than possible felonies. It 
made those changes both prospectively and retroactively, I 
think which we all have discussed is an important aspect, 
meaning that future offenders could not receive felonies for 
those crimes. But also, if you are in prison serving a sentence 
for those crimes, and those crimes could amount to life 
sentences under the Three Strikes law, then you had an 
opportunity to get out.
    Proposition 47 also created a fund from the state savings, 
from a reduced prison population, and distributed that money to 
K-12 education and reentry programs throughout the state.
    Ms. Bass. Ms. Kubrin, I know you were talking about 
Proposition 47, but could you please state for the record what 
was Proposition 36?
    Ms. Kubrin. So, I have not done research on Proposition 36.
    Ms. Bass. No, I know.
    Ms. Kubrin. So I would defer to my colleagues, who could 
probably say more about that.
    Ms. Bass. Okay. Ms. Vargas-Edmond.
    Ms. Vargas-Edmond. I would defer to Mr. Romano.
    Ms. Bass. Okay, all right. You get it again.
    Mr. Romano. Proposition 36 was enacted in 2012. It reformed 
California's Three Strikes law to require that a third strike 
be a serious or violent felony. In other words, you couldn't 
get a life sentence for a non-serious, non-violent crime. It 
limited life sentences for shoplifting a pair of socks--that is 
not an exaggeration--stealing a dollar in change from a parked 
car. And like 47, it operated prospectively, meaning nobody 
could get a life sentence for these minor crimes in the future, 
but also retroactively. So if you were serving a life sentence 
for an extraordinarily minor crime, you could get out of prison 
as well.
    Ms. Bass. How about explaining what realignment is, Ms. 
Kubrin?
    Ms. Kubrin. Sure. So, 8109 realignment was implemented in 
2011. It took what we called the triple nons, the non-serious, 
non-sex, non-violent offenders, so very low-level individuals, 
and transferred them from state-level prisons down to the 
county level. Counties were given discretion and funding in 
which they could figure out what they wanted to do with these 
low-level offenders. They could put them in jails, they could 
do electronic monitoring, community supervision. Basically, 
each county had to come up with a realignment plan on how it 
was going to use its realignment dollars. The idea was that 
this was something that could be handled better locally, local 
solutions to issues, and also that this would save the state a 
lot of money because instead of having individuals in the state 
prisons at the tune of around $55,000 back then, that this 
would create a lot of savings for the state as well.
    Ms. Bass. Thank you.
    Ms. Vargas-Edmond, you mentioned about how the state prison 
budget is still increasing in dollars, but has there been any 
increase in programming? Meaning education, training, et 
cetera.
    Ms. Vargas-Edmond. To technically answer your question, 
there has been an increase in funding for programming, but 
there have been many issues in terms of implementing and 
expanding access to programming inside of prisons. There are 
various reasons for that. One, most of the prisons in 
California are rural. They are in places where community 
members who have to come in and offer their volunteer time to 
implement programs, it is difficult for volunteers to come. 
Two, there are security concerns. The way CDCR operates is as 
if the prison is in security lockdown. People are not allowed 
to move. I see that we are out of time, but there are various 
issues----
    Ms. Bass. Well, in the last few seconds, it took community 
organizing and activism to really bring about these reforms. 
Could you speak a minute about that?
    Ms. Vargas-Edmond. Yes. So, community members, particularly 
people who are directly impacted by incarceration, recognize 
the importance of programming, and Proposition 57 was put on 
the ballot largely by the volunteer efforts of people who have 
incarcerated loved ones and folks who are formerly 
incarcerated, mostly because folks recognize that they want the 
opportunities to be able to come home and were willing to work 
and invest in their own rehabilitation in order to do so.
    Ms. Bass. Thank you. Let me also just mention that for 
Three Strikes to change, there was an organization, Families 
Against Three Strikes, that worked for a couple of decades to 
reform the Three Strikes law.
    Let me call on Representative Hank Johnson for your 5 
minutes.
    Mr. Johnson of Georgia. Thank you, Madam Chair. I 
appreciate you hosting us out here in Los Angeles for this very 
important topic. I am just heartened to see how many people in 
the community care enough about this subject to come out on a 
Saturday morning.
    [Applause.]
    Mr. Johnson of Georgia. I will note the vast array of 
ethnicities out there in the crowd. It is really heartening for 
me coming from Georgia, where we almost elected Stacey Abrams 
for governor, I might add.
    [Applause.]
    Ms. Bass. You did elect Stacey Abrams. She just wasn't 
allowed to take office.
    Mr. Johnson of Georgia. That is right. We still have 
election death going on around here.
    But at any rate, what percentage of the petitions under 
Proposition 47, which was retroactive and which enabled persons 
who were currently serving sentences to petition the judge for 
release, what percentage of those petitions are granted and 
denied, or have been granted and denied, granted or denied?
    Mr. Romano. So both under Proposition 36 and 47, the vast 
majority have been granted. I am talking over 95 percent of 
people who are eligible have been released. I will say, 
however, that litigation is ongoing for both initiatives, 
especially here in Los Angeles, where prosecutors are opposing 
the release of these folks.
    Mr. Johnson of Georgia. Have prosecutors, the prosecuting 
counsel of California, I guess, have they opposed any of these 
propositions before they passed? And has their stance against 
the propositions, if there was opposition, changed since 
implementation?
    Mr. Romano. So, the California District Attorney's 
Association has opposed almost all of these reforms. 
Proposition 36 was supported by the Republican District 
Attorney of Los Angeles, Steve Cooley, at the time, and the 
current District Attorney, Jackie Lacey. They are outliers, and 
very few DAs have recognized the effectiveness of these 
reforms.
    Mr. Johnson of Georgia. What have been the human, societal, 
and/or financial costs associated with over-incarceration? And 
anyone can respond.
    Ms. Vargas-Edmond. I could be here all day talking about 
the human costs of mass incarceration. Maybe I will share a 
little bit about my story of being a woman impacted by 
incarceration.
    My husband, at the age of 19, was facing 150 years to 
double life for an offense in which no one was hurt. He ended 
up being sentenced to 10 years and pled out to things that he 
did not do because of the ways the District Attorneys have the 
ability to stack charges.
    Because of Proposition 57, he was able to earn almost two 
years off of his sentence, and that is the reason that he is 
here now.
    [Applause.]
    Ms. Vargas-Edmond. But the seven years that he spent 
incarcerated cost me about $40,000 out of my pocket to be able 
to make visits, to be able to put money on the phone so I could 
talk to him, to send packages, and that doesn't even include 
the cost that we spent on an attorney trying to fight his case. 
There are too many stories that are exactly like mine where 
women of color in particular bear the financial burden and the 
emotional burden and the social stigma of having incarcerated 
loved ones.
    [Applause.]
    Ms. Vargas-Edmond. So I think it is really important to 
take into consideration the human cost on not only the people 
who are incarcerated but their family members and their 
communities who bear the brunt of that burden as well.
    Mr. Johnson of Georgia. Children involved?
    Ms. Vargas-Edmond. Children.
    Ms. Kubrin. Can I just add, as a sociologist and someone 
trained in sociology, mass incarceration reproduces inequality 
in our society. It reproduces and deepens inequality in all 
aspects, whether we are talking about education, family, the 
labor market. Prison can be a stratifying institution. And so 
if we want to fight back against inequality, racial inequality 
in particular, we cannot have the kinds of incarceration rates 
that we have had in this country.
    [Applause.]
    Mr. Johnson of Georgia. Even with Propositions 36, 47, and 
57, and the legislation that you referred to, Professor Kubrin, 
does California still have an over-incarceration problem?
    Ms. Kubrin. Absolutely.
    Mr. Romano. Yes. We are currently at about 137 percent of 
the design capacity of the prison system. We are under a 
Federal court order that has ruled that the conditions in 
California prisons are so bad that they amount to cruel and 
unusual punishment. This was a decision that was originally 
made in 1995, and we are still under that decision. It was 
affirmed by the Supreme Court in 2011. We are still under that 
order. So the answer is yes.
    Mr. Johnson of Georgia. Thank you.
    Ms. Bass. Representative Lieu.
    Mr. Lieu. Thank you. Let me first thank Congresswoman Karen 
Bass and my colleagues for being here at this important 
hearing, for all of you for being here.
    When I was in the California state legislature, I had the 
honor of working with then-Speaker Bass on her leadership team 
on criminal justice reform, and it is such a thrill to now be 
in Congress and work with Karen Bass on criminal justice 
reform.
    [Applause.]
    Mr. Lieu. I have had a chance to visit both Federal and 
state prisons, and two things became clear to me. One is, 
regardless of what we think, we can all agree on this one 
point, which is people in prison have a lot of time, and it 
seems totally ludicrous to me that we don't provide better 
opportunities for them to spend that time getting an education 
or earning a skill, or learning a tradecraft.
    [Applause.]
    Mr. Lieu. The second thing that became clear is that with 
any large population, there is a large, diverse array of 
interests, and some folks might love a plumbing course and want 
to be a plumber. Some folks might never ever want to go near 
that area.
    So my first question is to Ms. Vargas-Edmond. You said the 
California Department of Corrections has a lot of discretion in 
implementing these rehabilitation credits. Do you believe they 
have enough array of programs for the diversity of interests 
that prisoners have in getting these credits?
    Ms. Vargas-Edmond. No. The short answer, no. However, a 
positive aspect that came from Proposition 57 is that for the 
first time incarcerated people were allowed to earn time off of 
their sentence for participation in what are referred to as 
ILTAGs, inmate leisure time activity groups, which are peer-led 
groups, which are determined based on the need and the interest 
of currently incarcerated people. So that is certainly a step 
in the right direction.
    But in terms of job or vocational training or 
rehabilitative programming that might address folks' cognitive 
or behavioral needs, I think a significant issue that we have 
is that currently incarcerated people don't have a say in which 
programs are implemented. What we have done with Initiate 
Justice is we have conducted surveys of currently incarcerated 
people to ask what programs they think should be available and 
have been able to analyze some of those results and put forward 
recommendations when we advocate both through the legislature 
and through the administrative process through CDCR. I can't 
say that we have necessarily won any of those victories because 
it is a huge uphill battle, but I would recommend that the 
state legislature and CDCR actually ask folks who are impacted 
what they need to be successful.
    Mr. Lieu. Thank you.
    [Applause.]
    Mr. Lieu. There is one specific area that I worked on. It 
is arts in corrections, and for some prisoners going through 
programs related to art or through acting seems to have a 
transformative effect on them. I have worked with groups such 
as Actors Gang, and they go in and they teach prisoners 
basically how to act. To me it is really sort of an emotional 
management course cloaked as acting, but it seems quite 
transformative. I have tried to get it in Federal prisons.
    Do they get credits for that, do you know, in the 
Department of Corrections, for arts in corrections programs?
    Ms. Vargas-Edmond. Well, they could if the program was 
registered as an official inmate leisure time activity group. 
However, the threshold for that is pretty high. They are only 
able to earn 40 days off per year for 208 hours of program 
completion.
    Mr. Lieu. Thank you.
    Mr. Romano, Professor Romano, a question for you about 
Proposition 36. Based on the research I read, people who are 
released because of that have an extremely low recidivism rate, 
on the order of 1.7 percent. Is that correct?
    Mr. Romano. In the first year of their release, yes.
    Mr. Lieu. Okay. How about in the outer years?
    Mr. Romano. In the outer years they are still vastly 
outperforming all other people being released from prison.
    Mr. Lieu. What is the statewide recidivism rate in general?
    Mr. Romano. Well, recidivism is a tricky word, but we can 
use returns to prison or new convictions. I think new 
convictions is probably the fairest and best measure. The 
statewide new conviction rate is about 50 percent, just under 
50 percent.
    Mr. Lieu. So why is there such a huge disparity between 
people released under Proposition 36 and the statewide 
recidivism rate?
    Mr. Romano. I should say the 50 percent recidivism rate is 
over three years, and I wish I knew the answer to that. 
Honestly, the recidivism rate for folks released on 36 has been 
better than our wildest expectations. We are very happy with 
the results.
    [Applause.]
    Mr. Romano. We have worked hard to ensure success for as 
many people as possible. Folks are older, but we are still 
outperforming old inmates who are being released. So there are 
a lot of reasons that go into it, and I wish I knew the answer.
    Mr. Lieu. Thank you.
    So let me just conclude with this. I want to thank all of 
you here for fighting for criminal justice reform. Many times, 
things in politics seem impossible until it happens. So if 10 
years ago I were to tell you, hey, in 10 years we will be 
smoking weed in multiple states, you would think I was crazy. 
[Laughter.]
    That is what is happening now. [Laughter.]
    And with that, I yield back.
    [Applause.]
    Ms. Bass. On that note, Representative Butterfield. 
[Laughter.]
    Mr. Butterfield. What a time to jump in. [Laughter.]
    Let me just begin by thanking the three witnesses for your 
testimony this morning. It was a very profound presentation and 
I want to thank you so very much.
    As Ms. Bass said at the outset of this proceeding, this is 
not a political rally. This is not a town hall meeting. This is 
an official congressional hearing, and so the remarks that you 
will make today will go into the Congressional Record and will 
be a guide for us as we legislate in the years to come.
    I am Congressman G.K. Butterfield. I represent a very low-
income minority district in eastern North Carolina. I have been 
in Congress now for 15 years, serving as Chief Deputy Whip of 
the House Democratic Caucus.
    What has not been made abundantly clear here this morning 
is that Congressman Karen Bass is a very busy congresswoman. We 
all know what her car looks like. It is a black Toyota with 
California tags on it. We see that car all over Washington, 
D.C., morning, noon, and night. She represents you, and she 
represents you well.
    [Applause.]
    Mr. Butterfield. You all are cutting into my time now. You 
are cutting into my time, but I have got to give credit where 
credit is due. I am not one that just heaps a whole lot of 
praise on people just for the sake of doing it, but your 
congresswoman is a dynamic leader. Not only does she serve as 
the Chair of the Subcommittee on Crime and Terrorism and 
Homeland Security, she is also the Chairwoman of the 
Congressional Black Caucus, 55 members of us from all across 
the country. She was unanimously elected as chair of our 
caucus, and we are so very proud of her. Keep your applause 
down. She also serves on Foreign Affairs Committee, where she 
leads the effort on Africa and world hunger and domestic 
poverty and all of the others.
    [Applause.]
    Mr. Butterfield. And so I want to just thank her publicly 
for her leadership.
    I also want to thank my friend Ted Lieu. Ted Lieu is a very 
active member of Congress. He is also in the Democratic 
leadership, serves as the co-chair of our Democratic Policy 
Communications Component. We call it the DPCC. He is very 
active. He is on the Judiciary Committee and serves you well.
    [Applause.]
    Mr. Butterfield. So I am delighted to be here today. There 
are 240 Democratic members of the House of Representatives out 
of 435, which means that we are the majority party.
    [Applause.]
    Mr. Butterfield. We get enormous criticism all across the 
country because we don't tell our story well enough. And so 
this trip here to Los Angeles this morning is an opportunity 
for us to tell our story, to let you know what we are doing, to 
listen to you and to collect information, collect evidence so 
that we can go back and do more. And so I want to thank you so 
very much for coming.
    In my prior life I served as a judge, spent 15 years in the 
judiciary in North Carolina, 13 of those on the trial bench, 
where I sentenced literally thousands of individuals over the 
15-year period. I served on our state supreme court for two 
years. And so I have a vested interest in what we are talking 
about today. For 15 years I sat in the front row watching 
justice and the miscarriage of justice take place right in 
front of me. And so, although I am not on the Judiciary 
Committee, I have a profound interest in this subject.
    Let me conclude by talking about my favorite subject in 
criminal justice reform, and it has to do with record 
expungement.
    [Applause.]
    Mr. Butterfield. Let us remember that 90 percent of those 
who are incarcerated are in state prisons, 10 percent are in 
Federal prisons. What that also means is that we as a Congress 
do not have what is called jurisdiction over state issues. We 
cannot direct the states with respect to their criminal justice 
system. We don't have that power. We have the power of the 
purse. We can withhold funding to states for various programs, 
but we cannot direct states as to how to conduct their program.
    And so what I saw when I was a judge is that police at the 
time of arrest have a tendency to overcharge, charge for 
offenses which the defendant did not commit, only just a hint 
that they may have been involved in it. So what that means is 
that the overcharging is done so that when the case goes to 
court, there is room to plea bargain, there is room for 
negotiation. And so if the young offender is charged with 12 
offenses, when the case goes to court, the prosecutor may offer 
a plea deal for two offenses, which means that the 10 offenses 
would be dismissed. That sounds good, but it continues to be on 
the defendant's record for the rest of her life. It is a 
problem. And so when she is released from prison or terminates 
her probation, goes for a job, they look at the criminal 
record, Oh, you cannot work here because you were charged with 
first-degree burglary. And when the defendant says but that was 
dismissed, that does not matter to the employer.
    So please pay attention in California to the need for a 
strong expungement law so that cases that were dismissed and 
cases in which the defendant was found not guilty can be 
expunged from their criminal record.
    Thank you so very much.
    [Applause.]
    Ms. Bass. Representative Evans.
    Mr. Evans. Thank you very much.
    I too want to thank our chairperson in a lot of different 
ways. Obviously, as chair of this subcommittee, I am really 
honored to be here, and as chair of the Congressional Black 
Caucus.
    But I want to probe something that was said, and I would 
like for you to elaborate on it. Front and center, you said 
something that I believe. As goes California, so goes the rest 
of the nation. And I think that what you said--I don't want to 
put words in your mouth, but I want you to expound on it, the 
importance of it, because in Pennsylvania, I have been around 
long enough to tell you that Pennsylvania went from 5,000 
people in prison to 55,000 people in prison, and that 
Pennsylvania has 12 million people in the state, and the fact 
is that Pennsylvania is a rural state. Obviously, prison 
production has basically been economic development in rural 
areas. So we don't need to forget the fact of the economics 
around that.
    But I want you to probe, Professor, on that front-and-
center statement, because people really need to understand 
that. Can you speak on that?
    Ms. Kubrin. Thank you. Yes. I mean, I absolutely agree, 
California has led the way in many ways. At the same time, what 
California has done has been quite modest. I think the term 
``low-hanging fruit'' was used, which is that we have 
identified the least serious offenders, the low-level, non-
violent, non-serious, non-sex offenders.
    The big question to me, first of all, other states should 
be looking at California to replicate that, considering what 
may work in their state. But the next step is what is next. How 
do we continue on the path of reform in order to get where we 
should have been before the buildup started, and that's going 
to take some real digging, I think, to move beyond simply 
identifying the lowest level non-violent, non-serious, non-sex 
offenders.
    In some ways I was not surprised by the findings of these 
studies because it is the low-hanging fruit that we are talking 
about here, people who have committed such minor offenses and 
would do better to have rehabilitation and other kinds of 
reentry responses rather than harsh punishment. The big 
question I think in California and other states as well is 
where do we go from here, what is next. California is a great 
first start. It should be modeled in many ways, but the next 
big question remains.
    Mr. Evans. And I want to piggyback on as a result of what 
you have just said. In Pennsylvania, the governor there did 
shut down a few prisons, and in addition to that we passed a 
law on earned time, and we passed the law in Pennsylvania 
relating to closing cases so that wouldn't be on their record.
    So I am saying that you, as our chairperson here, this is 
all being watched. I don't want you to just think you can look 
at this from the perspective of California and Los Angeles, but 
you need to understand there are other states watching and 
listening. So you could not at a better time, the person who is 
the chairperson of this subcommittee for the role that she 
plays, along with Congressman Lieu and Congressman Johnson, my 
good friend, Congressman Butterfield said. But also Congressman 
Lieu must be the best tweeter in the House of Representatives. 
[Laughter.]
    He gives out lessons on that. Social media is also 
extremely significant because you need to use every method in 
your toolbox in terms of communicating.
    So this hearing, in my view, reinforces this discussion, 
and that piece you said front and center, because states are 
laboratories of democracy. It is not the national government. 
It really is driven from you, and then we react to what takes 
place.
    I was in the legislature for 36 years, and I was the 
chairman of the Appropriations Committee, so there is a direct 
connection to cost implications, which I think is why you 
suddenly see Republicans, not because of moral outrage, in my 
view, but because of the cost implications that it is driving 
on the national level in each state budget. So just understand 
the dollars are also driving the decision-making of what is 
occurring here. I just want to add that, and I yield back the 
balance of my time.
    Ms. Bass. Representative Horsford.
    Mr. Horsford. Thank you, Madam Chair. I too want to commend 
you.
    The vision of your congresswoman to bring these 
congressional hearings is very significant, as has been stated, 
and this is one in a series of congressional hearings across 
the country that is being led by Congresswoman Bass as the 
chair of the Congressional Black Caucus so that we can hear 
directly from the community, the experts, those who are 
impacted by the policies that we are setting.
    And so I want to commend you again, Congresswoman, and 
thank you for inviting me to participate.
    I was looking up just quickly some information, and 
California spends about $75,000 a year to incarcerate a 
prisoner. And yet, it spends about $10,000, $291 per child to 
educate. And so I want to ask the witnesses what specifically, 
Ms. Edmond, what investments could be made on the front end to 
help strengthen our communities by supporting our programs 
around children, around families----
    [Applause.]
    Mr. Horsford [continuing]. That would help stem the 
incidents that lead people to crime to begin with.
    Ms. Vargas-Edmond. Thank you very much for that question. I 
think a topic that is often left unaddressed in these policy 
reform conversations is root causes, so thank you very much for 
that.
    First and foremost, I think that we should directly be 
asking people who are impacted what services could have been in 
place to prevent you from committing what it was that you 
committed. I think that what we would find are things that we 
know a little bit already, what causes violence. We have an 
incredibly violent culture. We have a history of racism. We 
have poverty. We have issues of unaddressed mental illness and 
substance abuse. So those are some areas where we can start.
    I think most folks in our communities are aware of the fact 
that if you are experiencing a mental health crisis, you do not 
have access to resources or social workers, and what folks will 
often say is, well, we have to wait for them to commit a crime 
and then we can call the police.
    I am glad that you raised the amount that we spend on 
education. I think what we are seeing is that we get what we 
pay for, so I believe that we need to dramatically increase 
what we are spending on social services, ensuring that children 
who are in crisis are getting the care that they need, that 
everybody has access to therapy to work through the trauma that 
they have that may cause them to cause harm in the first place. 
And if folks do end up being incarcerated, making sure that we 
are seriously and significantly investing in their own healing 
and transformation and reentry.
    Mr. Horsford. Thank you.
    [Applause.]
    Mr. Horsford. I want to ask the witnesses to discuss the 
juvenile offender piece of this. You have described the 
California legislature's steps in recent years acknowledging 
that age should be taken into consideration when determining 
the length of a person's incarceration. So what things should 
we consider as Federal legislators in approaching or reforming 
some of our practices around juveniles?
    Ms. Vargas-Edmond. I would recommend looking at the 
science. There is a lot of evidence to show how cognitive 
development is different for different folks, so looking at 
what the different cognitive needs are for people who are below 
a certain age and coming up with appropriate responses based on 
what the cognitive development is for the person at that age. 
And then just to reiterate the point that I made previously is 
to increase access to programs and services so that folks who 
are young have access to maybe more non-punitive interventions.
    I think most young folks make mistakes. Some are illegal, 
some are not. Some people get caught, some people don't, and a 
lot of that has to do with your income and your skin color. So 
taking into consideration what we can do to target specifically 
vulnerable young people and make sure that they get care and 
not just punishment.
    [Applause.]
    Mr. Horsford. And finally, Mr. Romano, real quickly on the 
recidivism rate, you said about 50 percent. How much of that is 
for technical violations, and how is that being addressed in 
any of your policies?
    Mr. Romano. Those are for new crimes. So those are actual 
convictions.
    Mr. Horsford. But my understanding, though, is if you 
technically violate off of a minor offense, you could end up 
back in prison.
    Mr. Romano. Actually, in California, one of the first 
reforms that California achieved was to reduce, if not fully 
eliminate, returning people back to prisons for technical rule 
violations. So both for parole, which is run by the state, and 
probation, California dramatically reduced the number of people 
who are going back to prison for technical violations of their 
release rather than committing new crimes. That was one of the 
first and most successful reforms here.
    Mr. Horsford. Can I get the information on what that is? 
Because we need to bring that to Nevada.
    Mr. Romano. Absolutely.
    [Applause.]
    Ms. Bass. Once again, I want to thank our witnesses on our 
first panel. This was excellent. We really appreciated your 
testimony.
    And as my colleague Representative Butterfield said, you 
are not just giving testimony and having a discussion here just 
to educate ourselves. We take this information and this 
absolutely helps us develop legislation. So, thank you very, 
very much.
    [Applause.]
    Ms. Bass. While we are transitioning to the next panel, I 
wanted to acknowledge a few people that are here. I saw former 
Assemblywoman Gwen Moore come in. Where is she? Please stand 
up. For my colleagues here, that is the other Gwen Moore.
    [Applause.]
    Ms. Bass. There is a member of Congress named Gwen Moore 
who is from the great state of Wisconsin. She is the original 
Gwen Moore in our audience here.
    Michael Lawson, who is the CEO of the Urban League, is 
here.
    [Applause.]
    Ms. Bass. And standing next to him is Pastor Michael Eagle, 
who has also been a warrior for criminal justice reform for 
many, many years.
    [Applause.]
    Ms. Bass. And I want to thank Reverend Boyd. Those folks 
from Los Angeles know we are in the Fame Renaissance Center. We 
are across the street from First AME Church. So we want to 
thank Reverend Boyd.
    [Applause.]
    Ms. Bass. I see our MTA Commissioner, Jackie Dupont-Walker, 
is here.
    [Applause.]
    Ms. Bass. Now let me welcome our second panel. Our first 
panel talked about reforms that California has done, and our 
second panel is going to look at what happens when people are 
released from prison, what do they need, what is their journey, 
and what can we do legislatively to help.
    I want to mention that on Tuesday the Crime Subcommittee in 
Washington, D.C. is going to have a hearing that is 
specifically looking at women in the criminal justice system, 
because as we embark on criminal justice reform in our nation, 
I have been struck by the fact that the discussions really are 
talking about men, and women and children are often not part of 
the discussion. So I want you to know that that is not the case 
in Washington, D.C., but we are definitely going to look at 
that.
    And then also the fact that we are here today having this 
hearing I think is an example of the types of things that we 
can do now that things have changed somewhat in Washington. We 
clearly need to have further changes over the next year, but 
the changes that have already taken place result in being able 
to have hearings and putting issues like criminal justice 
reform seriously on the top of our agenda.
    So, our first panelist, Susan Burton.
    [Applause.]
    Ms. Bass. She is not well known in Los Angeles. [Laughter.]
    She is the Founder of A New Way of Life Reentry Project. 
The Project promotes healing, power, and opportunity for 
formerly incarcerated people by taking a multifaceted approach 
to mitigating the effects of and ultimately eliminating mass 
incarceration. The project provides housing and legal 
assistance and other comprehensive services for those coming 
home after incarceration. People might remember that Susan 
Burton was one of the first recipients of the CNN Heroes. She 
was one of the 10 finalists out of the thousands around the 
country.
    [Applause.]
    Ms. Bass. Mr. John Harriel, as I know him--I used to call 
him ``Big John.''
    [Applause.]
    Ms. Bass. Big John is a Diversity Management Superintendent 
with the Los Angeles Electrical Contracting Company, so he is 
an electrician, works with individuals who seek a new direction 
in their lives through the construction trades with 2nd Call, A 
Second Chance at Loving Life. 2nd Call is a community-based 
organization designed to save lives by reducing violence and 
assisting in the personal development of high-risk individuals 
and those who have suffered convictions and incarceration.
    [Applause.]
    Ms. Bass. Mr. Stanley Bailey will describe his experience, 
having been sentenced to life in prison under California's 
Three Strikes law for a non-violent offense, and his later 
release after the passage of Proposition 36. Bailey also gave 
back after his release and drove across the country with a 
program that provides rides home to those leaving 
incarceration.
    [Applause.]
    Ms. Bass. We welcome our second panel and thank them for 
participating in today's hearing. I will remind the witnesses 
that your written statement will be entered into the record in 
its entirety. Accordingly, I ask that you summarize your 
testimony in 5 minutes, and to help you stay within that time 
we will continue with our iPad screen, which has your time.
    Ms. Burton.

STATEMENTS OF SUSAN BURTON, A NEW WAY OF LIFE REENTRY PROJECT; 
JOHN HARRIEL, DIVERSITY MANAGEMENT SUPERINTENDENT, LOS ANGELES 
    ELECTRIC CONTRACTING COMPANY STANLEY BAILEY, DURANGO, CO

                   STATEMENT OF SUSAN BURTON

    Ms. Burton. Yes. Good morning. Thank you so much, 
Congresswoman Bass, for putting this panel together. I want to 
thank you all for spending your Saturday morning with us here 
in Los Angeles.
    [Applause.]
    Ms. Burton. My name is Susan Burton. I am Founder of A New 
Way of Life Reentry Project. And just to give you some context 
of how I got here, which is documented in the book that you all 
have, the short story is I lost a son. After I lost him, I 
began to drink. I drank alcoholically. It escalated to drug 
use, and I was sentenced to prison. I was sentenced to prison 
not one time but six times. Every time, I would plead my case 
and ask the judge for help. I was always sentenced to prison.
    October 4th of 1997, I found a place on the west side of 
Santa Monica out by the beach that helped me. When I landed 
there I couldn't understand why the type of help that was 
available to people in Santa Monica was not available to people 
in south L.A.
    [Applause.]
    Ms. Burton. After leaving the recovery program, I worked, I 
saved money, all the time beginning to understand the 
difference of the two worlds. I saved money and I got a little 
house.
    You go down to Skid Row today, you will see where we get 
off the bus when we come from California prisons and try to 
make a way, a way back into our lives. I met Karen Bass at the 
Community Coalition, one of the only places that embraced what 
I was doing. I bought a house and I began to meet women down 
there at that bus station and would bring them to that house.
    Today--that was in 1998--we have helped over 1,000 women 
come back into the community.
    [Applause.]
    Ms. Burton. We have a 90 percent success rate. We also help 
women reunite with their children. We have legal services. We 
have just an array of services.
    I published a book in 2017. 2018 I spent going to prisons 
all over this country, all over this country and in two other 
countries. I visited 30 states, 46 prisons, and sat down with 
women. When we talk about what women need when they are leaving 
prisons, overwhelmingly I saw women recidivating because they 
had no safe place to go. I saw women who were desperately 
trying to maintain their parental rights when needing 
reunification services and ways to keep ties to their children. 
I saw women who wanted to get a job and go to work and were 
worried about how they would get employed, how they would live.
    As a result of that tour, as a result of seeing all the 
languishing and suffering women across this nation, I developed 
a training to help states to replicate our model at A New Way 
of Life that has proven to be very successful.
    I have also raised $2 million to help those states and 
those women to replicate the model of A New Way of Life.
    [Applause.]
    Ms. Burton. I know what it could mean to leave a prison and 
have safety, and to leave a prison and not have safety. Women 
are the fastest-growing segment of the prison system, and we 
could really be doing something different.
    So I am really, really thankful to you, Congresswoman Bass, 
for holding this hearing, not a town hall, and having us come 
together here to begin to discuss women reentry and the needs, 
to turn the tide here.
    Before I close, with my 11 seconds, in order for me to go 
back home to A New Way of Life, I need to have all the women 
from A New Way of Life stand, and I would really like to have 
all the people in the audience----
    [Applause.]
    Ms. Burton [continuing]. Who are formerly incarcerated, can 
you just stand and let us know and see who you are and what you 
look like? All right.
    [Applause.]
    Ms. Burton. So, thank you. But I think housing, jobs, 
reunification support, and just being able to have that level 
of hope for people coming home. Thanks.
    Ms. Bass. Thank you very much.
    [Applause.]
    Ms. Bass. John Harriel.

                   STATEMENT OF JOHN HARRIEL

    Mr. Harriel. Thank you. That is a tough act to follow right 
there. I just want to say thank you for the work that you do, 
Susan, because I am aware of it, and thank you, Chairman Bass 
and the committee, for being down here. This is a great day 
today and I am glad to be here.
    So, as you read off my things that I do as being an IBEW 
union electrician, going into my 22nd year, Diversity Manager, 
General Superintendent for Morrow Meadows Corporation, and a 
facilitator at 2nd Call, and also a member of the great 
Abundant Life Christian Church down on 3500 South Normandy, 
where we hold the Life Skills class every Thursday.
    But before we get to that of me being a homeowner, an 
individual in the community--I still live in the same community 
I helped destroy--let's go back to the prison system, because 
absolutely I come from that dysfunction.
    I did not know that I had low self-esteem growing up. When 
I would suit up--and when I say ``suit up,'' we are talking 
about not the suit that I have on today, looking real 
handsome----
    [Laughter.]
    Mr. Harriel [continuing]. But the other suits that would 
cause individuals to say, hey, that guy must be a member of so-
and-so.
    I had no idea that I wanted to commit suicide. I just 
didn't want to do it by my hands. I wanted somebody else to do 
it.
    So growing up in my community, when I think back there was 
no men leading the way as far as getting up, putting their 
boots on, going to work every day. What I saw in young men, 
were other things that were counter-productive of manhood. But 
at the time I didn't know.
    To show you how counter-productive it was, I can remember a 
time as a young man, my mother, bless her soul, because she is 
not here anymore, but I can remember her being on the floor 
picking up little white spots thinking it was crack cocaine, 
and my sister was involved with the man who supplied her the 
cocaine, and I worked for him as a drug dealer. So he was able 
to take control of the whole household. But by me not 
understanding manhood, I thought that was just how it was. I 
had visions of going to prison because in my community prison 
was rewarded.
    Now that I know that it is not like that, when I was in 
prison, there were two men by the name of Ernest Cornes and 
Everette L. Tims that helped me see something in myself I 
didn't see in others, I didn't see in myself. So when I got out 
of prison, the IBEW saved my life, and Morrow Meadows enhanced 
it, because they believed in a young man that did the things 
that I have done, and with these same hands. Everything in L.A. 
that has been built of significance, I have been on to help 
build.
    [Applause.]
    Mr. Harriel. So with that, I understood that if it helped 
me, I had the duty in my community to help those same young men 
and women who others called gang members. I called them 
friends. We are in the same group of now picking up tape 
measures instead of guns, purchasing homes instead of doing 
home invasions. But it was all through the fact of we had life 
skills, and that is what 2nd Call does, the life skills. So we 
talk about the anger management, the low self-esteem, how did 
it feel to me not to have my father or even my mother hug me 
and tell me she loved me, how did that make me feel.
    So when I talk about those things and I get that out of me, 
free of charge, we get to talk about that once a week down 
there on Thursday, it makes me a better person in my community, 
and it makes me a better employee, a better friend, a better 
father, a better grandfather, and an individual who can change 
and save lives because of the simple fact of what we preach and 
teach is I want you to be a better person. The careers come 
later.
    There is nothing I cannot build due to the building trades 
allowing someone like me with a background of a 9th grade 
education to now there is nothing I cannot build. I am an 
absolute vicious individual when it comes to being a building 
electrician.
    [Applause.]
    Mr. Harriel. I know how to do this. And I think the Morrow 
Meadows Corporation and the family--because with them, from the 
top down, that family decided to come out and invest in our 
community, and there are a lot of young men and women working 
because the IBEW provided a platform, but Morrow Meadows 
enhanced it by allowing them to come down to see what 2nd Call 
does and embrace what we are doing for the community and help 
us be productive citizens in our community.
    So with that I will say to you thank you for thinking 
outside the box and being uncomfortable and coming down to the 
community and doing something different. Thank you.
    [Applause.]
    [The statement of Mr. Harriel follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
        
    Ms. Bass. Mr. Bailey.

                  STATEMENT OF STANLEY BAILEY

    Mr. Bailey. Good morning. It is an honor to be here.
    As mentioned in the bio, I did do 36 years in the 
California Department of Corrections, long before they added 
the ``R'' to it, to make it ``Rehabilitation.''
    What is not mentioned is that when you get a significant 
amount of time, you are sent to a prison of higher security. So 
the programs that help you earn your way out are not available. 
Because of the constraints for safety, you are not allowed to 
roam free in and out of your cells for evening classes, and it 
makes it hard to participate in classes.
    My childhood, to go to that, is pretty typical. I was 
involved in drugs. Two months before my 19th birthday I entered 
the prison system. A month before my 54th birthday I was 
released. I was a recipient of Prop. 36. Twenty years in the 
prison system, I was convicted of drug paraphernalia, which 
triggered the Three Strikes life sentence.
    During the last 10 years of that sentence, I availed myself 
of self-help classes, alternatives to violence programs, 
Criminal and Gang Members Anonymous, Alcoholics Anonymous.
    I didn't enter the prison system as a thug. I went in as an 
addict, and there is a big difference. Addiction and mental 
health make up a large proportion of the prison system. The 
mental health people that suffer are abused both by other 
inmates and staff. Addiction was not addressed. ILTAG was not 
even a word when I went into the system.
    After Prop. 36 passed, I was picked up by Stanford's Ride 
Home Program by one of the two individuals that weren't 
attorneys, that were released from prison, convicted felons 
themselves. The first 24 hours of release was a real crucial 
time for me, and having some instruction in what I could expect 
to come my way, both good and bad, given firsthand, not 
somebody that spoke about it academically but someone that had 
actually done it was a big help.
    If you serve a significant amount of time, housing and 
employment is the issue. Most young men that go in, and women, 
and do 18 months, they still have family, they still have 
girlfriends, boyfriends, people to look out for them when they 
get out. If you serve 10, 20, 30, 40 years, when you become 
that age, the generation before you has most likely passed. 
Myself, my mother, father, grandmother, grandfather, aunts, 
uncles, brothers, sisters, everybody passed before my release. 
When I was getting ready to come home, everybody that I knew 
was a junkie or a thug. So to come out to that was a scary 
thought.
    I was approached by my counsel, who works for Stanford 
University, and I was told that maybe volunteering for 
transitional housing--it wasn't court ordered for Prop. 36 
recipients. And also for AB 109 for the post-release community 
supervision was another good thing to volunteer for. It gave 
you accountability.
    Transitional housing is just what it says. If you serve 
three decades in prison, you need a transition back to society. 
Most of us know where China is. Most of us know what a boat is. 
But if you take us down to the dock and you say get in a boat 
and go to China, you are kind of at a loss. Even if they hand 
you charts, you don't know how to navigate that, and that is 
what we deal with as older people coming out of the Department 
of Corrections.
    Since my release I have worked as a street sweeper on the 
Figueroa Corridor, from Martin Luther King to Adams. I passed 
by there today, and it was kind of ironic. Since I am now a 
heavy equipment operator and a truck driver, when I tell people 
that I worked for Christmas as a street sweeper, they assume it 
was machinery. And I tell them no, it is like the guy following 
the elephant at the zoo. [Laughter.]
    I had a little cart, from the business to the curb. That is 
what I did.
    When I would ride the bus to work I would pass a little 
truck yard, and I always thought I am going to go in there and 
ask that guy if I can get some experience around those trucks. 
But he had this dog that used to run out to the front and chase 
me.
    So one day I got up the nerve and I went in there and I 
told the gentleman, man, I would really like to have some 
access to the trucks and the heavy equipment just to 
familiarize myself with it. And he was like, well, don't they 
have classes for that? And I told him, hey, I need it, I learn 
by touching, by doing, not by reading about it.
    Whatever you need, I will give you 10 free hours of labor, 
of work a week, and I will even pick up after that little 
raggedy dog. [Laughter.]
    You know, whatever you need, you know? And luckily he 
didn't chase me off and he allowed that. While I was in the 
transitional housing I acquired my commercial license, and I am 
now working as a commercial driver and a heavy equipment 
operator.
    [Applause.]
    I just want to emphasize how important transitional housing 
is. It should be mandatory. It shouldn't be a volunteer thing--
--
    [Applause.]
    Mr. Bailey [continuing]. That after you serve your sentence 
you can go. It should be two years before your sentence ever 
ends, would you like to go, and give a chance to transition 
back into society and get, like John mentioned, some man skills 
or some woman skills, get some job training.
    Transitional housing shouldn't be another prison. It should 
be a place to transition into society.
    Ms. Bass. Thank you.
    Mr. Bailey. My time is up, and I just want to thank you for 
your work on my behalf. I appreciate it.
    [The statement of Mr. Bailey follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
        
    Ms. Bass. Thank you.
    [Applause.]
    Ms. Bass. So we will now proceed under the 5-minute rule 
with questions, and I will begin by recognizing myself for 5 
minutes.
    One, I really appreciate all of your testimony. What I 
wanted to focus on, I am trying to develop a piece of 
legislation to come up with reentry services. I know in Los 
Angeles we just opened a reentry center that I am very excited 
about visiting. I haven't visited it yet. I know under 
Supervisor Mark Ridley Thomas--and it is right near here, and I 
think it opened up maybe just a week or two ago.
    So I am interested in developing a program that would be 
run by formerly incarcerated people. Big John, you know I have 
been to your meetings at 2nd Call, and I will never forget 
going there and listening to people tell their stories. But if 
you could envision a program, a one-stop center for people when 
they get out of prison--and you all do a piece of that--what 
should take place in that one-stop center? What is needed?
    Mr. Bailey, your testimony, which I know I never thought 
about until you mentioned it, somebody that has been 
incarcerated for a long time and their family passes away, I 
never thought about that. But then again, it is so hard to 
envision the amount of time that people actually serve. You 
said your final strike was drug paraphernalia. What did you 
have that sent you in for life?
    Mr. Bailey. I had a hypodermic syringe in my cell.
    Ms. Bass. A hypodermic syringe in your cell led to life 
imprisonment.
    Mr. Bailey. Yes, it triggered the non-violent--under the 
old Three Strikes law, that was my third strike, and it 
triggered a life sentence.
    Ms. Bass. Incredible. So what would you do, Big John, what 
would you do? What do you need in a program?
    Mr. Harriel. The first thing I would do if I had a one-
stop, I would form the relationships with all of the building 
trades and sit them in a room and come up with a process that 
might be just a little bit different than what the normal 
process is, because we know we are dealing with certain 
circumstances, to help facilitate the process of a young man or 
woman getting into the trades, because oftentimes people will 
walk by and say, hey, I don't see no black people, I don't see 
no women, and it is not because they don't want to get you. It 
is the fact that I don't know the rules, like I have to have a 
high school diploma, I have to be drug free, I have to take an 
exam. And then when I get the work--this is where the life 
skills come into it--do I show up two hours early, or do I show 
up two minutes late? Do I walk with a purpose, or do I just go 
out there and lollygag? That is why it is so important to 
understand those dynamics.
    Ms. Bass. So in a one-stop, would you have GED training?
    Mr. Harriel. Yes.
    Ms. Bass. And speak a little bit more--why the building 
trades?
    Mr. Harriel. The building trades because I will have a 
career. The difference between the building trades and a job is 
that a job maybe affords me a one bedroom. A career will get me 
a house to where I can get into----
    [Applause.]
    Mr. Harriel [continuing]. Living in my community and doing 
what I am supposed to do and provide a way. I have a pension. I 
have health care. And I can build things, and I can leave a 
legacy because I am the first generation in my family bloodline 
to be a part of a union, and I know that the building trades 
treats individuals who follow and do what they are supposed to 
do with respectful pay, and they can take care of their 
families.
    Ms. Bass. And the building trades is one of the few areas 
that actually welcome people who are formerly incarcerated.
    Mr. Harriel. It doesn't matter. I have individuals who have 
done 38, 40 years, 25 years, and I am talking about the proven 
risk. I am not talking about the at-risk. I am not talking 
about low-level crime. I am talking about absolute top, apex, 
vicious individuals, the ones who are the proven. Those 
individuals now are working on projects because of the building 
trades and coming down with the life skills.
    I have blacks, Latinos, whites, Asians who want to change 
this, and we help them, and they get out there in the field and 
they are thriving. They are building the stadiums, the 
hospitals, the Staple Centers. We are doing that work. The 
individuals who used to use these hands for wrong are now doing 
it for right.
    Ms. Bass. Ms. Burton, what would you put in a one-stop?
    Ms. Burton. Congresswoman Bass, to have a one-stop is just 
like kind of common sense for us, to be able to go to one 
place, get your I.D., apply for benefits, get connected to 
medical services, go to have a GED class, go to have family 
reunification. We are located in the one-stop, so A New Way of 
Life is a part of that. We are doing family reunification.
    To have child services in that one-stop, and to have an 
array of services allows people to begin to get their lives on 
track quicker, faster. I said to one of the residents a couple 
of weeks ago, I said what are you doing today? And she says, 
well, I am going to apply for the rehabilitation services. And 
I said what else? And she said that is all I can do with the 
transportation.
    But having a one-stop allows people to access all the 
different services in one place at one time that can bring 
their lives back together so they can move forward.
    Ms. Bass. Do you think people who are formerly incarcerated 
could run a program like that?
    Ms. Burton. Of course.
    [Applause.]
    Ms. Burton. Hey, I am doing national and international 
reentry. A New Way of Life has built a place in Uganda, okay? 
We are about to do one in Kenya. We have a shop going up in 
Chicago next month, one in New Orleans later this year.
    Can we?
    [Applause.]
    Ms. Burton. All we need is opportunity. All we need is 
opportunity.
    Ms. Bass. Thank you.
    Representative Johnson.
    Mr. Johnson of Georgia. Thank you.
    I didn't introduce myself. I am Hank Johnson. I represent 
Georgia's 4th District, which is the eastern suburbs of 
Atlanta, and I have been in Congress for 13 years. Before I 
came to Congress I was a criminal defense lawyer for 27 years, 
and I remember every bit of that 27 years, but thinking about 
the 36 years that you did, Mr. Bailey, is almost unfathomable 
to me.
    I tell you, it is not often that people out in society who 
are, quote, ``law abiding citizens,'' it is not often that they 
would get an opportunity to hear the kind of stories that you 
three have told us and what you have overcome. What you have 
accomplished is indeed maybe not the same American Dream that 
others have fulfilled, but certainly you are living what has to 
be an American Dream, and I want to congratulate all three of 
you for your accomplishments.
    [Applause.]
    Mr. Johnson of Georgia. And since everybody is talking 
about Karen Bass----
    [Laughter.]
    Let me say that during that first 12 years, I was just a 
rank and file member of the Congressional Black Caucus, never 
had the desire to serve as an officer, but now I serve as the 
Secretary of that organization. And the only reason I did that 
was so that I could support Karen Bass as President.
    [Applause.]
    Mr. Johnson of Georgia. I will be her Attorney General. 
[Laughter.]
    [Applause.]
    Mr. Johnson of Georgia. But let me ask this question in all 
seriousness. What is the typical experience of one who has 
completed their time? They are walked from their cell to 
whatever outtake location it is at the prison. What takes place 
for the typical inmate at that time and thereafter, the first 
24 hours or so? Could you all----
    Mr. Harriel. I can speak on that. I have done it a couple 
of times. You leave your cell. Usually you give away all your 
stuff to people that you know and people that are in need. You 
go to a receiving and release area. You are fingerprinted. Your 
property is searched on your way out. You are given $200 at the 
gate, and then you are escorted to the parking lot.
    Excuse me, let me back up. If you don't have clothes to 
parole in, then about $30 or $40 of that $200 is taken from you 
to supply you with dress-up clothes. If you are in a rural area 
that doesn't really want convicted felons released in their 
backyard, then there is a shuttle service that takes another 
$80 from you to get you to a larger metropolitan area to put 
you on a bus back to home. So now you are down to about $90 
when you hit the streets, and you are told that within 24 hours 
you need to report to your parole agent or it is a violation of 
the conditions of your parole.
    Without transitional housing, it is a really scary 
experience and there is very little support. The guards in 
receiving and release, they say, hey, we will see you in a 
couple of weeks, you know? And that is usually the way it 
works, too. Recidivism is ridiculous.
    It is hard to navigate it without transitional housing. I 
keep going back to that. I benefitted from it. I spent 15 
months, nine of it voluntarily, court ordered for six. It was 
immeasurable to me and to what success I have had.
    Mr. Johnson of Georgia. Thank you.
    Ms. Burton. So, 10 days before release, they drop you--I 
can remember a paper being dropped through the wicket, and they 
call it a time docket 10 days before you are released. The 
anxiety sets in because you know you are unprepared, and you 
know you have nowhere to go.
    The morning of your release you wrap up all your bedding, 
your clothing, you take it to the gate. You yell up to the gun 
tower: ``I am being released.'' You walk over to R&R. You are 
stripped out, just like you are stripped in, and you are 
fingerprinted out.
    You are given an envelope when you are ready to walk 
through the gates after three or four hours of sitting there 
sweating, full of anxiety. They give you an envelope. They put 
you in a van. They drive you to the bus station, where you buy 
a ticket. You ride from whichever prison in California you are 
being released from, and you get off the bus downtown Skid Row.
    When you are down there, just think about how many people 
are being paroled back there and have to leave through that 
muck and mire, through the devastation, through the conditions 
to find their way.
    You are hoping and you are praying for something different. 
You know that something different is in you, but you just don't 
know how to access it, and all of these emotions, and your 
freedom, and your ability to make a decision is all coming back 
to you.
    Six times I did that. Six times I failed. It wasn't until I 
accessed support that I was able to get my life back together. 
So no one should be released to those types of conditions and 
have to navigate that.
    Mr. Harriel. What I find so disrespectful, because I had to 
do it three times--but the thing that I found so disrespectful 
is the fact that it is almost like taking a shower and getting 
really clean, and then putting dirty clothes back on, because 
what happens is they release me and they send me back to my 
community, but then when I go to the parole officer, they tell 
me I can't be associated with gang members.
    Well, wait a minute. This is my community, these are my 
friends. If you don't want to violate me and send me back to 
the same community, I have nowhere else to go.
    So now, by me being an electrician and doing what I am 
doing, the very house where it was the epicenter of the 
nonsense is now about to be a house for transitional housing 
once it gets completed, once it is remodeled, to give back to 
the community and help so this doesn't have to happen to other 
people.
    [Applause.]
    Ms. Bass. We need to move on to Representative Lieu.
    Mr. Lieu. Thank you. Thank you all for sharing your stories 
and the great work that you have done.
    Ms. Burton, I am curious the last time that you were 
released, how did you find out about that support? What caused 
you to make a change in relation to the prior six times? How 
did you know about that?
    Ms. Burton. So I reached a place that emotionally, 
spiritually, that I knew if I didn't get help, I would die. It 
is in the book. Over a cheap beer with a friend, he told me 
about this place in Santa Monica that he had been. It didn't 
dawn on me that it wasn't working for him because we were 
drinking cheap beer. [Laughter.]
    But I was desperate. I was desperate to find some type of 
help, and I made my way there, and that is what turned it all 
around. My parole agents, law enforcement, no one ever offered 
anything that would help me. I would say that they never picked 
me for nothing good. But I finally arrived there, and that 
turned my life around. There, there were therapy services. I 
was introduced to AA. I am 21 years sober.
    [Applause.]
    Ms. Burton. Dental services, medical services, clothing, 
food, everything I needed was there for me to begin to heal, 
because that is what I needed to do was heal.
    Mr. Lieu. Thank you.
    Mr. Harriel, you said that they sent you back to your 
community. Could you have gone anywhere, or do they restrict 
the places you can go after you leave prison?
    Mr. Harriel. I could have went anywhere, but my money--I 
only had $200. Two hundred bucks got me back to the community 
where I left from. I couldn't go anywhere else because that 
stuff has to be approved, and if I don't know no one, all I 
know is my community because that is what birthed me and made 
me. So I had to go back to the nonsense. It is almost like it 
is a Catch 22, because in 24 hours I got to go in front of the 
agent, and they have all these rules, and I am sitting there, 
like, wow.
    So I figured out that, wait a minute, if the trades saved 
my life, then I can do the same thing in my community. So a lot 
of young men from my same community are working now because I 
didn't leave the community. I changed my thought process and 
actually doing the work, and I became uncomfortable by talking 
to individuals I normally wouldn't talk to and asked them I can 
help you if I am willing to change and I am willing to go down 
and do the necessary work to change. I don't want to leave my 
community. I just want to enhance it and make it just like a 
community for everybody else.
    [Applause.]
    Mr. Lieu. And how did you find out about the trades?
    Mr. Harriel. While I was in prison, like I said, there were 
some men in there. One of the gentlemen was an IBEW 
electrician. I never thought about it. I only thought it was 
for white men and dudes in the mob. I never thought they would 
accept someone who looks like me. [Laughter.]
    But this individual, while I was in prison, I had about a 
year-and-a-half to go, and I had to change some ways, and that 
is where the life skills came in, and I started to understand 
that, make no mistake about it, I am not sitting there telling 
you that the police put something--no, I did what I did, and I 
went to prison for it. And I had to accept that fact, be 
responsible, and then I had to figure out a way how to change 
that, and it started while I was in prison. I started getting 
up and going to work every day in there, because those men 
helped me, and then when I got out I just took that same 
energy, brought it out and helped other people that wanted the 
help also.
    Mr. Lieu. Thank you.
    [Applause.]
    Mr. Lieu. Mr. Bailey, you mentioned Stanford's Ride Home 
program. I had not heard of it until you mentioned it, so I 
just read about it, and it is a pretty startling statistic that 
they have on their website. It says that in the first week 
after release, prisoners have a 12 times higher chance of dying 
in that very first week.
    So I am curious, if the Ride Home program wasn't there, 
what would you have done when you were released?
    Mr. Bailey. Well, I had been prepared through an attorney 
named Susan Champion that works with Professor Romano. That is 
who handled my Three Strikes case. The transitional housing was 
already there. Without the Ride Home, I still would have made 
it to the transitional house.
    But the information that I received from the gentleman that 
picked me up at the gate named Carlos Cervantes was really 
vital. He told me what I could expect, good and bad, over the 
next few weeks, few months. They don't just hand you a bus 
ticket and put you on a plane. I mean, I spent 16 hours going 
from Port Arthur, Texas to Evansville, Indiana, driving with 
someone just released from prison. The bus ticket or the plane 
ride would be a lot easier, but it doesn't give you time with 
someone who has actually done it, to give you a little 
encouragement and to give you the courage to go out there and 
do it.
    I say it in a joking way, but I was a heroin addict for 35 
years, and I tell people, hey, it is not impossible. If I can 
do this, anybody can do it. I went to prison with a 6th grade 
education, no employable skills, was released without a family 
member in sight, straight into transitional housing. That is 
what the Ride Home provides. It provides a few hints and a 
little bit of direction. The power of a cheerleader in your 
corner, that can't be overstated, someone to tell you that you 
can do this, this can be done, you just have to want it.
    Mr. Lieu. Thank you.
    I yield back.
    [Applause.]
    Ms. Bass. Thank you.
    Representative Butterfield.
    Mr. Butterfield. Thank you very much, Madam Chair.
    Let me again thank the three witnesses for their powerful 
testimonies today. I shall never forget it, and I thank you so 
very much.
    Let me spend my few moments addressing state and Federal 
funding issues for criminal justice reform and reentry 
services. That is very important, and I am going to ask you in 
a moment if you would help me understand the trend in 
California toward the investment in these services from your 
State Assembly, because I don't know. But what I do know is the 
trend at the Federal level, and it is not good.
    As a country, we spend $4.7 trillion every year; $2.9 
trillion of that is what we call entitlement spending, which 
means that we don't vote on it. It is an entitlement, $2.9 
trillion in Social Security, Medicare and Medicaid, and a few 
other programs. They are entitlements. What remains is what is 
referred to as discretionary programs, which is what we do vote 
on yearly. In fact, we are in the middle of the appropriations 
process as we speak.
    About half of the $1.9 trillion that we have to vote on and 
will be voting on in the next few days--we have already voted 
on some of those budgets. We voted on one yesterday, the 
Defense budget. But of that $1.9 trillion, half of that goes to 
the Pentagon. The other half goes to what we call non-Defense 
discretionary spending. That is the pot of money that we need 
to target programs to criminal justice reform and reentry 
services.
    Yes, we passed the First Step Act. I am very proud of the 
First Step Act. I voted for it, but it is only a first step. We 
must invest significant resources at the Federal level. Your 
State Assembly must invest significant resources at the local 
level so that we can deal with job training and transitional 
housing and GED services and legal services and health care and 
nutrition programs, and on and on.
    So what we are facing in Washington is a thing called 
sequestration. Several years ago during the Obama 
Administration we had a debt limit crisis, and the Republicans 
put the screws on us. They would not allow us to raise the debt 
limit. I don't have time to develop that right now, but there 
had to be a grand compromise, and the grand compromise was what 
we commonly refer to as sequestration. It put a cap on Federal 
spending. It put a cap on it on the Defense side and the non-
Defense side.
    So the Pentagon has felt that they have been strangled by 
sequestration. We in the community that supports the social 
services and the safety net feel like we have been strangled 
because we are not able to lift the cap and continue to invest. 
So we have had a crisis.
    So now the Republicans feel that there needs to be a 
lifting of the cap for the Defense spending. We would not agree 
until there was a lifting of the cap for non-Defense spending. 
So that is the tension that we have going right now. We are 
going to continue to resolve it. All of us on the Democratic 
side of the aisle--and I can tell you that the Democratic 
budget in the House of Representatives is a budget that is not 
perfect, but it is a budget that all of you would be proud of 
if you would really take a hard look at it.
    The problem is that once we pass our budget, it then has to 
go to the Senate for consideration, and there are different 
viewpoints over in the Senate, and there is certainly a 
different viewpoint down on Pennsylvania Avenue. So we are 
right in the middle of a real struggle right now to get the 
budget right.
    But tell me, if you will, Ms. Burton, and I know you have 
been on the front line now for a long time, what is the trend 
line in California with respect to state investment in reentry 
services?
    Ms. Burton. Assembly Bill 109 shifted money from the state 
prison budget into communities, and that is where communities 
had to come up with a formula for how they would spend that 
money. So there are resources that come from the state to the 
counties that agencies can apply for.
    Mr. Butterfield. So there is a sensitivity in your Assembly 
toward this issue.
    Ms. Burton. Most definitely.
    Mr. Butterfield. Maybe not where you want it to be.
    Ms. Burton. Not enough, yes.
    Mr. Butterfield. But the trend is in the right direction.
    Ms. Burton. Yes.
    Mr. Butterfield. Mr. Harriel, do you agree with that, or 
disagree?
    Mr. Harriel. No, I agree.
    Mr. Butterfield. Okay.
    Mr. Bailey, where are you on that in terms of state funding 
for reentry services?
    Mr. Bailey. I really don't know the statistics or the 
numbers. The need for it is there, and I think the numbers on 
recidivism will show that people that avail themselves of 
transitional housing have a better chance of success.
    Mr. Butterfield. You know, we ran into a crisis a few years 
ago with the debt ceiling. You all remember the words ``debt 
ceiling''? That is how sequestration evolved. Well, we are 
getting ready to hit the debt ceiling again in the next few 
weeks, and we are going to use this debt ceiling debate to try 
to leverage more resources at the Federal level so that 
programs like this can survive.
    Thank you so very much again.
    [Applause.]
    Ms. Burton. I would just like to state that money comes 
from the state. It comes down, and sometimes it comes down 
through law enforcement. A lot of times it comes down through 
law enforcement, and then law enforcement wants you to contract 
with them. But they also want to implement stipulations or 
requirements within those contracts. That is not good for the 
people that you are serving.
    So me, as A New Way of Life, the Director, I had to 
terminate some of that because we were not going to treat 
people the way in which it is not the best for them.
    The other thing is that private prisons can't come into our 
communities and begin to do reentry.
    [Applause.]
    Ms. Burton. And that is what we see some of those 
resources, a lot of those resources going to. So when we say 
community-based, we are not talking about the private prison 
industry. We are not talking about all of a sudden law 
enforcement doing reentry. You can't be on the front end and 
the back end.
    So I just want to make those clarifications about how 
resources come down, how they are distributed and allocated.
    Mr. Butterfield. Well said. Thank you.
    I yield back.
    [Applause.]
    Ms. Bass. Representative Evans.
    Mr. Evans. Thank you.
    You just heard Congressman Butterfield talk to you about 
the expense side. Steve and I are on the revenue side. So he 
talks about the expense side; we are on the revenue side. The 
reason I say that is I am on Ways and Means. So when you talk 
about housing and transitional housing, one idea I would plant 
with Congresswoman Bass to think about, the low-income tax 
credit program is a program that tends to be funded by the 
Federal Government, and I don't know how California is 
structured, but in the case of Pennsylvania there is an agency 
called the PHA, which is the housing authority, and that gives 
money to the public authority. Basically where it gets all of 
its money from is through the tax activity bond, which is 
capped, which was capped when the Republicans did it on the tax 
side.
    So the discussion Congressman Butterfield described to you 
is ultimately the issue about revenue. And what the Republicans 
were able to do is a term called ``drain the beast,'' cut the 
taxes so there wouldn't be any money on the expense side. Where 
we are right now, we are having this internal debate, not among 
us but about revenue and the availability of revenue.
    So what I would say to you--and I do agree with you, Mr. 
Bailey, a great deal, the housing issue is probably the issue. 
My understanding here in California I heard the Congressman 
describe, there is some kind of bond issue regarding housing. I 
think you did something about bond housing. Well, we are facing 
the same kind of problem, and how do we address that? 
Homelessness is a huge, huge problem, and we haven't figured 
out what is the best way to approach that.
    Voice. Because you are not working with us who have lived 
experience. You are working with the other folks who have a 
say----
    Ms. Bass. You can't do that now.
    Go ahead, Mr. Evans.
    Mr. Evans. So the bottom line is what we are trying to 
figure out is we are trying to figure out ways to make more 
housing available from where we sit. We are trying to figure 
out what leverage--how do we put the votes together, because I 
totally agree with you. You can't talk about if a person 
doesn't have any place to live, there is no question that is a 
huge issue. So I share with you that is something that we are 
trying.
    [Applause.]
    Mr. Evans. I want to go back to something that--can I call 
you Big John?
    Mr. Harriel. Absolutely.
    Mr. Evans. I want to go back to something you said which I 
am very much interested in, that I am interested in personally. 
I have an older brother who was addicted for 25 years. He is no 
longer. He hasn't been addicted in the last 15 or 20 years.
    What I am most interested in is the aspect of when you 
started this conversation off you talked about interventions. 
You talked about the life skills. What I am most interested in 
is trying to understand what interventions sort of work, and is 
that something that is driven by government, driven by the 
community, driven by religion, driven by church. What exactly--
because the follow-up with Congresswoman Bass when she talks 
about this entity trying to figure out the intervention 
aspects, can you talk a little bit about the life skills part?
    Mr. Harriel. Absolutely.
    Mr. Evans. And is that mandated? Is that done by a 
volunteer effort? How do people enter that process?
    Mr. Harriel. For me and for 2nd Cause, it is voluntary. But 
through the community and through experiences, it is absolutely 
mandatory that an individual come to understand these life 
skills before I put them out there in that savage kingdom, what 
we call the real world, because if I grew up in a square mile 
where the only thing I understood was violence, there is no way 
I am going to get up at 3 o'clock in the morning, work 40 hours 
a week for 25 years. That doesn't make sense to me, because in 
my brain I have low self-esteem. So if I have low self-esteem, 
one of the things that I learned about the women that came out 
of her program was that hurt people hurt people.
    So when I hear someone is addicted, I don't even care about 
the addiction. I want to know what they are running from. And 
once we get that and we start that process, then we start the 
process of cleansing out the body, understanding what is going 
on. Like right now, I will be 50 in December, and my father is 
the one that is left. He lives at my property. But right to 
this day it affects me because he has never told me he is proud 
of me. But that affects me as a man. I know that I am an 
absolute beast, but I know as a man that affects me. So as a 
young man, I couldn't go to some of my fellow gang members and 
say, hey, I feel a little low self-esteem. [Laughter.]
    It doesn't work that way. But now as a man I can say that 
and have other people sit there. So not only do we get the ones 
coming out, but before they go--I have children in the class 
that they can understand and I can talk about how I feel, how I 
feel about certain things, and we get it out through the 
experience, because I have slept in those alleys. I ate out of 
trash cans. I have watched things that I know I can't un-see in 
my head. But at the same time, I know that the rearview mirror 
in my car is the smallest mirror because it ain't meant for me 
to look back. I have to move forward.
    [Applause.]
    Ms. Bass. Representative Horsford.
    Mr. Horsford. Thank you, Madam Chair.
    First, thank you each for speaking your truth and for 
sharing with us how you have overcome the challenges that you 
faced and how you are now giving back to help other people. 
This is a very valuable panel.
    I like to follow the money, as my colleague Mr. Evans said. 
Again, going back to where I started, the California Department 
of Corrections, last year's budget was $12 billion.
    Ms. Burton. Oh, we could do a lot with that. [Laughter.]
    Mr. Horsford. It is 9 percent of your state budget, which 
is about $132 billion. If my math is right, and I know it is on 
average and the rate has gone up over the years, but between 
the amount of years each one of you have served and how much 
the taxpayers spent, this is a $3 million panel sitting here.
    What could we have done with that $3 million for these 
three individuals rather than incarcerating them? What could we 
be doing with the $12 billion? Not to suggest that all of that 
would go away, but a lot of it could.
    And you spoke about the industrial prison complex. I do 
want to highlight just a couple of achievements in my home 
state of Nevada. One of our state legislators passed a bill to 
end private prisons in the state of Nevada.
    [Applause.]
    Mr. Horsford. They are now banned in our state.
    We also passed legislation dealing with the sealing of 
records so that that process is now more streamlined and that 
people know how to go through the process.
    We passed the restoration of voting rights for ex-felons so 
that they have the ability to change the circumstances----
    [Applause.]
    Mr. Horsford [continuing]. That may have contributed to 
them being in the situation they were in.
    And finally, we passed a bill to compensate those who were 
wrongfully convicted and to restore some justice there.
    [Applause.]
    Mr. Horsford. So it is a lot happening at the state level, 
as it is here in California, and at the Federal level.
    But I want to touch on Mr. Big John. Before I ever came to 
Congress, I ran the state's largest employment and training 
non-profit in Nevada doing a lot of the work that you talk 
about, and I want to touch on something that you said because 
it is very relevant, the diversity or lack thereof in some of 
the trades.
    Now, IBEW is a great example, but there are some trades 
that don't do well. We have done training programs for 
individuals with and without prior convictions, and they still 
don't get in. So what can be done to help improve that? Number 
one.
    Mr. Bailey, you talked about that ethic that was inside of 
you, that when you walked by that facility with the dog out 
front, you saw an opportunity where some people may have said I 
don't want to do that type of work, that is not for me. What 
was it that put that inside of you, and how can we encourage 
other people to take advantage of an opportunity even though it 
may not be the one they first saw? Because you were willing to 
do something initially that may have been beneath you, but it 
now led to you having the commercial driver's license that you 
have, but you had to work towards it.
    So I would like to ask the two of you to speak on that, 
please.
    Mr. Harriel. So, I go first. When I see individuals in 
different trades that don't look like me, I think about the 
individuals who didn't get out of their comfort zone. Well, for 
me, when I got in as an apprentice, my very first day the guy 
told me he didn't like people that looked like me. I dug 
ditches.
    But here is the thing: I showed up every single day. If he 
got there at 4 o'clock, I got there at 3:30. If he got there at 
3:30, I got there at 3 o'clock. There was nothing--the only 
words that came out of my mouth was not a problem.
    Mr. Horsford. So how do we help other people have that 
same----
    Mr. Harriel. That is where mentoring comes in, because I 
didn't just get in and look at it for myself. I knew I had to 
go back to the community and help other individuals understand 
that, hey, once I get in, I have to give back.
    Oftentimes, the reason why you don't see it is because 
there are people who are telling people what is going on out 
there in the Serengeti, but they are not out there battling in 
the field. I know what they want out there, and I went through 
it. I got through it, and now I give back and I bring other 
backgrounds to get back in, and that is so important. What are 
you willing to do to be uncomfortable? I think people that get 
complacent get lazy, and I think people that are complacent, 
they just do everybody a disservice. They play victim. No, we 
ain't doing that.
    Mr. Horsford. Mr. Bailey.
    Mr. Bailey. The quick answer is I didn't have a choice 
myself. I knew I had to make it, and I wasn't going back to 
jail, I wasn't going back to addiction. I had already made up 
my mind inside to do better with myself, long before Prop. 36 
was around, when I had no chance of parole. I just wanted to do 
better for myself.
    The addiction didn't fear me. Incarceration I wasn't afraid 
of. It was the people that lived under the bridge on 39th 
Street. When you go from 39th and Grand to USC College, the 
people that lived under that bridge, because if I wasn't going 
to be involved in crime and I wasn't going to be involved in 
drugs, that was my future. So that was my reasoning.
    The point that you brought up earlier, I have in-laws that 
are educators, and it is a great point. You can spend $10,000 
in the public school system to educate a child, or you can 
spend $75,000 a year later. My sister-in-law comes out of her 
own pocket to provide things in her classroom. What a 
correctional officer makes a year compared to what she makes is 
crazy. And to subsidize any kind of money for private prisons 
is ludicrous. Anytime someone has an incentive to fill their 
house, it doesn't make sense to me.
    Mr. Horsford. Ms. Burton.
    Ms. Burton. Yes, Congressman Horsford, we haven't talked 
about the harm women incur prior to incarceration. The study 
that you have, Congresswoman Bass, is part of what women talk 
about as far as how they have been harmed prior to 
incarceration, how they grow up, what is done to them, and 
where they land as a result of the harm.
    So I want to make sure that we bring into the conversation 
the piece on women and what they need to actually be able to 
come back into the community, become productive members, 
reunite with children, be good moms, good parents, good 
employees.
    One of my earliest memories is driving to Camarillo State 
Hospital in the back seat of my mother's car, picking up my 
auntie's boyfriend, and trying to disappear into that seat 
because I knew he would harm me over the weekend, and it went 
on and on and on and on through my childhood.
    The women who come to A New Way of Life, we sit in circles 
speaking and healing with each other about what has been done 
to us that lands us using drugs or angry and acting out, or 
what have you. But I just wanted to bring into this 
conversation the need for women to have access to therapy 
services, to supports to help them heal also.
    Mr. Horsford. Thank you. Thank you.
    [Applause.]
    Mr. Horsford. Madam Chair, I would like to just close by 
saying your vision for that one-stop community center is a 
great vision and one that I know we can all work to build not 
just here in California but across the country, and we can 
start by taking some of the Federal and state appropriations. 
We can't just cut those budgets. We have to make sure the money 
gets shifted to the resources where they can produce the best 
results. So, thank you.
    [Applause.]
    Ms. Bass. Representative Johnson.
    Mr. Johnson of Georgia. We have the upcoming Census coming 
out. I hope every single one of you will, first of all, be 
counted, will count everybody in your household, and will 
encourage those out in the streets who may be reluctant to 
share some information with the Census to go ahead and be 
counted, because the $900 billion in Federal revenues that flow 
to the streets through the state and local governments, if you 
only report 50 percent of the people who are living in the 
area, then you only get 50 percent of the money that you should 
be getting. You only get 50 percent of the representation in 
Congress.
    What we have voted for in the past has been measures that 
bestow upon the private, for-profit prison industry that is 
housing people down on the border, the crisis on the border, 
children who don't even have toothpaste and toothbrushes to 
clean up. They are sleeping in an aluminum blanket. I don't 
know how that keeps you warm. They are sleeping on the floor, 
while the providers of the jail ownership, the detention 
facility, is getting $775 per night, per child. That is 
obscene.
    So we need to be voting also. Everybody in here needs to be 
registered to vote and exercising their right to vote.
    Thank you.
    [Applause.]
    Ms. Bass. Thank you.
    Well, let me wrap us up here. Let me begin by really 
thanking everybody that turned out today. This is an amazing 
outpouring.
    [Applause.]
    Ms. Bass. It shows how important this issue is. Since so 
many people have my phone number, I get text messages from 
people in this room. I just wanted to mention that the anti-
recidivism coalition is a one-stop for reentry, and that 64 
percent of the staff at the anti-recidivism coalition are 
formerly incarcerated, and they provide comprehensive case 
management and pathways to careers, housing, and policy 
advocacy.
    I mention that because there are already a lot of examples 
of work that is taking place every day. There is Big John. 
There is A New Way of Life. But I know there are many people in 
this room who have been involved in this fight to end mass 
incarceration for decades. Many of us have been working on this 
issue for a very long time. We saw the laws when they were 
being passed. We tried to fight them. We lost. But now we are 
in a time period in our history where we are taking a look at 
this.
    I will tell you that everybody on the panel today are 
Democrats, but you should know that this is a bipartisan issue. 
A couple of my Republican colleagues who wanted to come just 
were not able to come scheduling-wise, but you should know that 
we do work together on this issue. The difference is that since 
there was a change in Congress, we are now here. This is top on 
our agenda in the Congressional Black Caucus and the Democratic 
Caucus, on the subcommittee, and on Judiciary Committee. 
Reforming our criminal justice system, ending and reversing 
mass incarceration are keys to our platform.
    I want to thank the staff from the congressional office who 
worked very hard in putting this together, and I want to thank 
the staff from the Judiciary Committee. You should raise your 
hand because you flew here from Washington, D.C.
    You too, Joe.
    Janice from Washington, D.C.
    [Applause.]
    Ms. Bass. They flew here to put this on.
    And then I want to thank my colleagues that are here. Those 
of you that know me, when you see me come home on the weekends, 
you always tell me how sorry you are that I have to go back to 
D.C., and I always tell you that there is no place else I would 
rather be than at the center of the fight, the existential 
fight that we are doing in our country right now.
    But one of the big reasons too is that I get to serve with 
people like the people who are on this panel, and several of 
them--I mean, Ted and I are from Los Angeles. We are used to 
four days in D.C., three days in L.A. We live on United 
Airlines and a couple of other carriers we spend 10 hours a 
week on.
    But my other colleagues that are here had a choice to make. 
They could have gone home. We all have to be back to work on 
Monday. They could have gone home, but instead they flew to Los 
Angeles and now will go home for maybe one day, a few hours, 
and then head right back to D.C. But these are the type of 
people that I get to work with every day, which is why I can 
survive being in D.C. right now.
    [Applause.]
    Ms. Bass. So, as Susan mentioned the need to address women, 
I mentioned at the beginning that on Tuesday in Washington, 
D.C. we will have a full hearing that looks at why women are 
involved in the criminal justice system to begin with, what 
happens to them when they are there, what do they need when 
they leave. I am doing specific legislation on pregnancy while 
incarcerated.
    So we have an awful lot of work to do. But one of the 
things that we have to figure out is the fact that this has 
become an industry, and so many people profit off of this in so 
many ways. The whole reentry idea that now the corporations are 
looking at, how they take over reentry, because we have so many 
barriers to people who are formerly incarcerated, that is why I 
believe we need programs that are led by people who were 
formerly incarcerated, because it serves as a source of 
support, but also as a source of employment.
    The young woman that mentioned working with people with 
lived experience, a basic principle that I have and many of my 
colleagues have is that the best way to do legislation is not 
to go off in some ivory tower but to talk to people who have 
experienced it and to have them participate with you while you 
are developing the legislation.
    [Applause.]
    Ms. Bass. My colleague, Representative Johnson, mentioned 
the Census, and the Census is an issue that I know our 
colleagues are going to address in the state legislature, 
because one other thing that mass incarceration has done to us 
is where are you counted when you are incarcerated? You are 
counted where you are incarcerated, but you know that 30 
percent of the state's prisoners come back to Los Angeles 
County, which cheats us of resources if they are counted in 
areas they do not live in.
    So we have a big agenda ahead of us. I have confidence that 
we will be able to continue to pass legislation on criminal 
justice reform. We have one of these little openings where 
there is interest in the Senate, and there is interest in the 
Administration.
    So we are going to get it done, and I just want to thank 
you so much for devoting your Saturday morning to address such 
a critical issue in our country.
    Thank you, and we are adjourned.
    [Applause.]
    [Whereupon, at 12:05 p.m., the hearing was adjourned.]

      

                                APPENDIX

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 


</pre></body></html>
